<html>
<title> - THREE MILE ISLAND--LOOKING BACK ON 30 YEARS OF LESSONS LEARNED</title>
<body><pre>[Senate Hearing 111-1180]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1180

                   THREE MILE ISLAND_LOOKING BACK ON
                      30 YEARS OF LESSONS LEARNED

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR
                       
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                               _____________
                               

                      U.S. GOVERNMENT PUBLISHING OFFICE 

94-022 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         GEORGE V. VOINOVICH, Ohio
BERNARD SANDERS, Vermont             CHRISTOPHER S. BOND, Missouri
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 24, 2009
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     7

                               WITNESSES

Klein, Dale E., Chairman, Nuclear Regulatory Commission..........     9
    Prepared statement...........................................    11
    Responses to additional questions from:
        Senator Inhofe...........................................    40
        Senator Vitter...........................................    44
Jaczko, Gregory B., Commissioner, Nuclear Regulatory Commission..    47
    Response to an additional question from Senator Boxer........    49
    Responses to additional questions from Senator Inhofe........    50
    Response to an additional question from Senator Vitter.......    51
Lyons, Peter B., Commissioner, Nuclear Regulatory Commission.....    52
    Response to an additional question from Senator Boxer........    54
    Responses to additional questions from:
        Senator Inhofe...........................................    56
        Senator Vitter...........................................    57
Svinicki, Kristine L., Commissioner, Nuclear Regulatory 
  Commission.....................................................    59
    Responses to additional questions from Senator Inhofe........    60
    Response to an additional question from Senator Vitter.......    63
Bradford, Peter A., Adjunct Professor, Institute for Energy and 
  the Environment, Vermont Law School............................    77
    Prepared statement...........................................    80
    Response to an additional question from:
        Senator Boxer............................................    85
        Senator Inhofe...........................................    86
    Responses to additional questions from Senator Vitter........    87
Denton, Harold, former NRC employee..............................    88
    Prepared statement...........................................    90
    Responses to an additional question from:
        Senator Inhofe...........................................    95
        Senator Vitter...........................................    95
Thornburgh, Dick, of counsel, K&L Gates LLP; former Governor of 
  Pennsylvania...................................................    98
    Prepared statement...........................................   100
Fertel, Marvin S., President and Chief Executive Officer, Chief 
  Nuclear Officer, Nuclear Energy Institute......................   121
    Prepared statement...........................................   123
    Response to an additional question from Senator Inhofe.......   133
    Responses to additional questions from Senator Vitter........   134

 
                  THREE MILE ISLAND--LOOKING BACK ON 
                      30 YEARS OF LESSONS LEARNED

                              ----------                              


                        TUESDAY, MARCH 24, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:35 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(chairman of the subcommittee) presiding.
    Present: Senators Carper, Inhofe, Voinovich, Vitter, and 
Merkley.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Welcome everybody. My voice sounds fuzzy up 
here. How do I sound out there? OK, all right, good. I don't 
feel fuzzy. I feel good. In fact, I have been looking forward 
to this hearing. We have a great lineup, two panels, and we are 
going to learn a lot. Welcome back, and maybe help us to look 
forward as well.
    We will be joined by Senator Vitter here in a little bit. 
We're going to go ahead and start. He doesn't want us to hold 
up, and so we will just go ahead and kick it off.
    I want to thank our staff, both Democrat and Republican, 
for your help in putting together today's hearing. And we are 
just grateful for all of our witnesses to be here.
    Today's hearing is focused, as you know, on 30 years of 
lessons learned since the Three Mile Island nuclear plant 
accident. Senators will have 5 minutes or so, for opening 
statements. Then I am going to recognize our first panel of 
witnesses, the Nuclear Regulatory Commissioners themselves, in 
living color, and you are all here and we are grateful that you 
are here.
    Chairman Klein, we will ask you to speak for maybe 5 
minutes or so. We will ask each of your colleagues to try to 
limit your remarks to close to 3 minutes. And then we will go 
about our first round of questions. I think we just have one 
round of questions for each of these panels.
    And then we will invite our second panel of witnesses to 
come forward, and we will follow their testimony with one round 
of questions as well.
    We will probably finish up about dinner time tonight.
    [Laughter.]
    Senator Carper. No, we will finish up. We have a caucus 
lunch and it starts at about 12:30 or 12:45, so we will finish 
up in due course.
    Thirty years ago, a nuclear accident occurred at the Three 
Mile Island nuclear power plant in Middletown, Pennsylvania 
that would shake America's confidence in nuclear power. The 
accident was a cooling malfunction that caused a partial 
meltdown of the reactor core, releasing a small amount of 
radioactivity. The accident was determined to be caused by a 
combination of several things: equipment failure, and the 
inability of the plant's operators to understand the reactor's 
condition during the event.
    Unlike the Chernobyl disaster that occurred I think about 8 
years later, the Three Mile Island reactor vessel did not fail. 
The leaked radioactive gases were vented into the atmosphere 
through specially designed filters under operator control.
    No immediate deaths occurred, and the Nuclear Regulatory 
Commission estimated that approximately one additional cancer 
in the area would result from the accident. Although any 
increases of the cancer death rate is unacceptable, I think we 
would all agree it could have been much worse.
    This accident had a profound impact on the public, on the 
nuclear industry, and on the NRC. Public confidence in nuclear 
power generation was, if not shattered, greatly damaged. The 
cleanup effort took nearly 14 years and some $1 billion to 
complete.
    Three Mile Island served as a wake-up call that we had 
become complacent on nuclear safety. After the accident, the 
NRC, Congress, and the nuclear industry took a long, hard look 
at what we needed to do to make this industry safer and to gain 
back, to regain the public trust.
    Under the direction of the NRC, the industry made sweeping 
changes. Today, our Nation's 104 operating nuclear reactors 
maintain high levels of safety and reliability. Our plants have 
also become more efficient over the past 30 years. As a result, 
we have been able to almost double our generating capacity, I 
call it our operating capacity, since 1979. These changes have 
given the nuclear industry one of the best safety records, 
really, of any industry in the United States.
    Now, Americans realize that nuclear power can provide 
reliable energy and can do it without polluting. To reduce our 
Country's dependence on fossil fuels, we need to do a number of 
things. We need to harness the winds off the shore of Delaware 
and other places along our coast. We need to harness the sun's 
rays in Nevada and other places like that. We will need to 
capture the CO<INF>2</INF> coming off of coal-fired plants in 
West Virginia and other place around the Country. And we are 
going to need to build plug-in cars in Detroit and other places 
around America, and drive them.
    We are also going to need, in the end, we are going to need 
if we are going to reduce the threat of climate change, our 
dependence on foreign oil, harmful emissions into our air, we 
are going to need nuclear power. But broad support for the 
nuclear industry will vanish if another nuclear accident 
occurs. Without a safe nuclear industry, there will be no 
nuclear industry.
    I like to tell the story, we have a pilot here, our 
colleague Jim Inhofe, who flies his plane, I think, all over 
the Country, maybe all over the world, but I like to, for the 
record, the plane, the plane. This is cool.
    [Laughter.]
    Senator Inhofe. I also have pictures of my kids.
    [Laughter.]
    Senator Carper. And he's got a bunch of them. You have one 
or two grandchildren, too, don't you? But not as many as Jim 
Bunning. Jim Bunning has 37 or 38 grandchildren, he and his 
wife. I said to him, how do you remember all their names? And 
he says, if they're with their parents, I can remember them.
    [Laughter.]
    Senator Carper. But we will look at your grandchildren 
pictures later, but thanks for sharing that airplane picture.
    I was a naval flight officer, 5 years of active duty, and 
18 years reserve, mission commander. And our jobs were to hunt 
for Red October, track Soviet nuclear submarines in all the 
oceans of the world, try to catch the bad guys coming into 
South Vietnam to resupply the Viet Cong, in our airplanes. It 
was interesting, we did mining operations and all kinds of 
stuff with our planes.
    Our skippers, our commanding officers would always say to 
us, the most important thing you are doing today is not 
tracking Soviet nuclear subs. The most important thing you are 
doing is not surveillance of the oceans, it's not a mining 
missions, it's not trying to catch the bad guys slipping into 
South Vietnam or Cambodia. The most important thing you are 
doing today is to take off safely, to fly safely, to land 
safely.
    And we tried to create a culture of safety in my squadron. 
We tried to do it in every naval aviation squadron. And we need 
a culture of safety, as I have said once or twice before, 
including to some of you, we need a culture of safety in every 
single nuclear power plant that we have now and those that we 
are going to build.
    As the oversight Subcommittee on nuclear safety, it is our 
job to make certain that the NRC and everyone who works in a 
nuclear power plant knows that safety is our No. 1 priority. 
Only with a safety-focused nuclear industry can America reap 
the benefits of clean, safe nuclear power, not just now, but 
for a long time to come.
    [The prepared statement of Senator Carper follows:]

           Statement of Hon. Thomas R. Carper, U.S. Senator 
                       from the State of Delaware

    Thirty years ago, a nuclear accident occurred at the Three 
Mile Island nuclear power plant in Middletown, Pennsylvania 
that would shake America's confidence in nuclear power.
    The accident was a cooling malfunction that caused a 
partial melt-down of the reactor core, releasing a small amount 
of radioactivity.
    The accident was determined to be caused by a combination 
of equipment failure and the inability of the plant operators 
to understand the reactor's condition during the event.
    Unlike the Chernobyl disaster that occurred a few years 
later, the Three Mile Island's reactor vessel did not fail. The 
leaked radioactive gases were vented into the atmosphere 
through specially designed filters under operator control.
    No immediate deaths occurred, and the Nuclear Regulatory 
Commission (NRC) estimated that approximately one additional 
cancer in the area would result from the accident.
    Although any increases in the cancer rate is unacceptable--
I think we would all agree--it could have been much worse.
    But this accident had a profound impact on the public, the 
nuclear industry and the NRC.
    Public confidence in nuclear power generation was 
shattered.
    The clean-up effort took nearly 14 years and $1 billion.
    Three Mile Island served as a wake-up call that we had 
become complacent on nuclear safety.
    After the accident, the NRC, Congress, and the nuclear 
industry took a hard look at what we needed to do to make this 
industry safe and gain back the public's trust.
    Under the direction of the NRC, the industry made sweeping 
changes.
    Today the Nation's 104 operating nuclear reactors maintain 
high levels of safety and reliability.
    Our plants have also become much more efficient over the 
past 30 years. As a result, we have been able to almost double 
our generation capacity since 1979.
    These changes have given the nuclear industry one of the 
best safety records of any industry in the United States.
    Now Americans realize that nuclear power can provide 
reliable energy, and can do it without polluting.
    Reducing our country's dependence on fossil fuels--we will 
need to capture the winds off the shores of Delaware, the sun 
rays in Nevada, and the CO<INF>2</INF> off the coal plants in 
West Virginia. We will need to plug-in our cars in Detroit. But 
we will also need nuclear power.
    We will need nuclear power to help us meet our clean air 
goals and our climate goals.
    But broad support for the nuclear industry will vanish if 
another nuclear accident occurs.
    Without a safe nuclear industry, there will be no nuclear 
industry.
    As the oversight committee on nuclear safety, it is our job 
to make certain that the NRC and everyone who works in a 
nuclear power plant knows safety is the No. 1 priority.
    Only with a safety-focused nuclear industry can America 
reap the benefits of clean, safe nuclear power.

    Senator Carper. And that ends my statement, and the ending 
of my statement coincides with the arrival of a couple of my 
colleagues. They wanted to wait until I finished. They have 
heard me give these statements before. But we have a new 
Ranking Member here, and it is David Vitter from Louisiana.
    Senator Vitter, would you like to proceed?

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. I will 
specifically not say it was perfect timing on our part. The 
thought never crossed my mind.
    It is great to be with you and great to be a new partner 
with you on this Subcommittee. We had a very good initial 
discussion last week, a few days ago, which I really enjoyed, 
and look forward to this work.
    I will simply say that I appreciate this hearing because we 
do have the opportunity, an enormously positive opportunity, 
for a nuclear renaissance in our Country. We need to pursue 
that aggressively and effectively to meet all of our energy and 
related environmental goals. And obviously, we need to pursue 
that in a context of safety. That is not only the right way to 
do it. That is the only way it will effectively happen, is to 
have the proper confidence of the American people in that 
regard.
    We are very active in all these pursuits in Louisiana, and 
we will continue to be in this nuclear renaissance. I look 
forward to hearing from all of our witnesses about this.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Vitter follows:]

             Statement of Hon. David Vitter, U.S. Senator 
                      from the State of Louisiana

    I'd first like to thank the Chairman, Senator Carper, for 
holding this hearing as an opportunity discuss what we have 
learned and to look forward and advance the future of the 
nuclear power industry. I enjoyed our conversation last week 
and believe there is an excellent opportunity on this 
subcommittee to work in a bipartisan manner to get some good 
things done. And for that I want to thank you.
    Second, I'd like to thank all the witnesses here today to 
discuss everything we have learned over the last 30 years. We 
have a distinguished panel here today that includes current and 
past NRC commissioners, as well as a former Governor and the 
head of the foremost institute on nuclear energy and safety. 
Thanks to all of you for your time.
    The accident at the Three Mile Island Unit 2 (TMI-2) 
nuclear power plant near Middletown, Pennsylvania, on March 28, 
1979, was the most serious in U.S. commercial nuclear power 
plant operating history.
    Fortunately, the accident caused no injuries or deaths. In 
addition, experts concluded that the amount of radiation 
released into the atmosphere was too small to result in 
discernible direct health effects to the population in the 
vicinity of the plant.
    Several independent studies have also been conducted. 
Estimates are that the average dose to about 2 million people 
in the area was only about 1 millirem. To put this in context, 
exposure from a chest x-ray is about 6 millirem. In other 
words, a chest x-ray exposes you to about 6 times the amount of 
radiation people were exposed to during the most significant 
nuclear accident in U.S. history.
    However, the accident was still an accident and did more to 
hurt public opinion of nuclear power than it did to the 
environment. Fortunately, the increased scrutiny came with 
increased vigilance by the NRC and other organizations.
    An important positive impact of the accident was that it 
brought about sweeping changes involving emergency response 
planning, reactor operator training, human factors engineering, 
radiation protection, and many other areas of nuclear power 
plant operations. It also caused the U.S. Nuclear Regulatory 
Commission to tighten and heighten its regulatory oversight. 
Resultant changes in the nuclear power industry and at the NRC 
have had the ultimate effect of enhancing safety.
    Within 9 months of the accident, the industry had formed 
the Institute of Nuclear Power Operations (INPO), whose mission 
is to promote the highest levels of safety and reliability in 
the operation of nuclear power plants.
    To improve training, INPO in 1985 formed the National 
Academy for Nuclear Training. The academy reviews and accredits 
nuclear utilities' training programs for all key positions at 
each plant.
    INPO has had a profound impact on the way nuclear plants 
are managed and operated. The proof is the steady improvement 
in plant performance in the nearly 30 years since the accident 
at TMI.
    Today, the Nation's 104 operating reactors maintain high 
levels of safety and reliability, as evidenced by the NRC's 
reactor oversight program and performance indicators tracked by 
the World Association of Nuclear Operators.
    Finally, I believe it is also important to note that 
universities and students across this Country are very excited 
about the potential of nuclear energy. On August 14, 2008, a 
U.S. News and World Report article was titled The New Hot Job: 
Nuclear Engineering. The article stated, ``After decades of 
declining interest in the field, universities are scrambling to 
keep up with the newfound demand'' and ``Not only are the 
existing programs growing near capacity, but departments that 
shuttered years ago are finding new life.''
    As well, Louisiana State University, which of course is in 
my home State, advertises that ``at the present time, demand 
for nuclear engineers and health physicists exceeds the supply, 
so that graduates in these areas have excellent prospects for 
obtaining well paid jobs in some phase of the nuclear field.''
    Indeed, these are very exciting times for an industry that 
is quite capable of providing high-paying jobs to American 
workers as well as providing consistent and reliable energy for 
decades. Thank you for your time and I look forward to 
questions.

    Senator Carper. Welcome aboard. We are delighted to have 
you as my seatmate here.
    Senator Inhofe chaired this Subcommittee for a number of 
years, and he began chairing the Subcommittee at a time that I 
don't know that Congress was providing especially good 
oversight over the nuclear industry. That changed under his 
leadership, and he continues to have a strong interest in this, 
and I am delighted that he is with us today.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, I appreciate that, Senator Carper. It 
is true, too. I recall, we were just talking back here trying 
to remember just when it was I became Chairman of this 
Subcommittee. I think it was 13 years ago. And at that time, 
there had not been an oversight hearing in years. And you know, 
the interesting thing was that the NRC was very anxious to 
start having oversight hearings. So we had oversight hearings, 
and then we kind of put down goals and deadlines, and we got 
some things really started at that time, I believe.
    And of course, at that time it was just 17 or 18 years 
after Three Mile Island. Our concern was always, you know, did 
we really learn something from that. And you point out very 
well, although for different reasons than I would have, nuclear 
energy in the future, it is going to have to be there. We 
cannot run this machine called America without the nuclear 
component.
    And it seems to me that it shouldn't take as long as it 
does take to get new applications working. I hope that we are 
going to be able to improve that.
    Studying the past is useful in so far as it guides 
improvement for the future, and I am glad that you are having 
this hearing because it is one that is certainly necessary now. 
No one should be pleased that the accident did happen, but I am 
very pleased that the Commission and industry have spent the 
last 30 years improving the safety of our existing plants and 
preparing to build new reactors.
    So I think that we have done a good job. I think you are 
certainly carrying this leadership on, Senator Carper, and it 
is something that, I can't think of anything more important 
that is happening in America today in terms of our future 
capability to run this machine than to be talking about nuclear 
energy.
    I would like also to hear in the opening statements from 
all of you how we can improve the timeframe that it takes to 
get these applications handled and perhaps something that we 
will be able to do to reach our goals a little quicker than we 
otherwise would. I appreciate your having this hearing.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    The accident at Three Mile Island was a culmination of 
several mistakes. As with any mistake, there are lessons to be 
learned. Critics of the nuclear industry frequently point to it 
and say neither the industry nor the Nuclear Regulatory 
Commission have learned anything from it and plants are just as 
risky today as Three Mile Island was then. Mr. Chairman, I 
strongly disagree.
    My first observation is that this accident validated the 
defense-in-depth concept which is the basis for nuclear safety. 
In spite of equipment malfunctions, design flaws, and human 
errors, radiation exposure to the public was within regulatory 
limits and was proven to have produced no discernable health 
effects.
    My second observation is that 30 years have passed and we 
haven't had another accident like this one, which partially 
melted a nuclear reactor core. That doesn't mean that the 
industry and the Commission can sit back and relax--they can't. 
It is our responsibility in this Committee to ensure that they 
do NOT become complacent.
    However, studying the past is useful insofar as it guides 
improvement for the future. I'm glad that Chairman Carper has 
chosen to focus this hearing on the constructive ways that the 
Commission and the industry have addressed those shortcomings 
rather than simply Monday-morning-quarterbacking a 30-year-old 
event.
    Even though there were no discernable health effects, the 
Three Mile Island accident was a transformational event. Many 
analyses of this accident were done, cataloging the various 
equipment malfunctions, design flaws, human errors, and poor 
communication. The analyses formed the basis for the NRC to 
impose many new regulatory requirements and for the industry to 
establish a more coordinated effort to improve safety and 
performance. The most important lesson is the need for both the 
industry and the regulator to be vigilant about improving the 
safety of nuclear energy. As Senator Carper is fond of saying, 
``If it isn't perfect, make it better.''
    This vigilance is very evident in the effort to license new 
plants. The NRC has indicated to this Committee that it will 
spend approximately 5 years reviewing new reactor designs 
before granting certifications. While I'm not thrilled with how 
long that process takes, the current process will be more 
predictable and is clearly an improvement over how new plant 
licensing was conducted in the '70s and '80s. Modern technology 
has also yielded great improvements in plant equipment 
reliability and control rooms that reduce the potential for 
human error.
    No one should be pleased that the accident happened. But I 
AM very pleased that the Commission and the industry have spent 
the last 30 years improving the safety of our existing plants 
and preparing to build new reactors that are even safer. This 
vigilance will ensure that our Country will continue to benefit 
from clean and reliable nuclear energy for years to come. This 
is the true legacy of Three Mile Island.

    Senator Carper. Senator Inhofe, thanks very much, thanks 
for your leadership and your continued strong participation.
    Another former Chair of this Subcommittee has bailed on me 
and gone over to be the Ranking Republican on, what is it, the 
Transportation and Infrastructure Subcommittee, George 
Voinovich of Ohio, but it has been great working with Senator 
Voinovich on these issues and a bunch of others.
    Senator Voinovich, you are recognized.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thanks very much, Mr. Chairman and 
Ranking Member Vitter.
    I want to welcome Senator Vitter to this Subcommittee. I 
served on it for 8 years, either in the chairmanship or Ranking 
Member, and Brother Carper and I have had some fun together.
    Mr. Chairman, I take great pride in the fact that this 
Committee has helped transform the Nuclear Regulatory 
Commission into one of the best and most respected regulatory 
agencies in the world. We worked very hard placing the right 
people on the Commission, providing the Commission with the 
resources and tools necessary to do its job, and holding them 
accountable for the results.
    We have held more than 20 hearings involving the NRC in the 
past 8 years. A good number of those hearings were related to 
the Davis-Besse incident in 2002, and we took the NRC to task 
as it was initially reluctant to address the issue of safety 
culture. So it is no accident that we have seen dramatic 
improvements in both the safety records and reliability of the 
104 operating reactors today, compared to 2002.
    And I would like to take this opportunity to thanks and 
recognize each member of the Commission for the outstanding job 
that you do day to day. Being a regulator often is a thankless 
job, whether it is the NRC, FAA, FDA, or the Federal Reserve 
Board. It seems as though the only time people care about what 
you do is when something goes wrong, and it is almost always to 
criticize what you did or didn't do. And you should be very, 
very proud of your record.
    Indeed, a regulator's job is a complex and difficult one. 
It is like a high wire balancing act. You can't be too far to 
the left or too far to the right. It has to be just right. The 
Fed has to keep the interest rates just right, otherwise it 
will result in either recession or inflation. Similarly, the 
NRC has to be vigilant at all times to keep its regulatory 
threshold just right. It should be tight enough to prevent 
complacency, both within the agency and the industry it 
regulates, but not overly restrictive to a point of stifling 
the growth of nuclear power in this Country at a time when it 
is most needed.
    I think today's hearing provides us with an opportunity to 
reflect upon the past, present and future of the industry. 
Clearly, the nuclear power industry has come a long way since 
the 1960s and 1970s. The Three Mile Island accident in 1979, 
however unfortunate, provided an experience through which both 
the industry and the NRC were humbled, and have matured into 
stronger, safer entities.
    There were many lessons learned from TMI, as we will hear 
from the witnesses today. But one that resonates with me the 
most as a policymaker is something that Admiral Rickover said, 
``Nuclear power is not to be feared, but to be respected.''
    I recently met with Mr. Andre Lacoste, the Chairman of the 
French Nuclear Regulatory Agency, and he said something very 
interesting. He said that many European countries that adopted 
a policy of phasing out nuclear power following Chernobyl in 
1986, countries like Italy, Sweden, UK, and perhaps even 
Germany, are now re-embracing nuclear power.
    I was at the German Marshall Fund this last week and heard 
again that they are really thinking about really getting back 
into nuclear power. He thought there were two main reasons for 
this. One is the recognition that the newly adopted carbon 
reduction mandate cannot be achieved through energy efficiency 
and renewables alone. And the other is the recognition of the 
improved safety records and reliability of nuclear power 
plants, and maybe the jobs that are created in the nuclear 
power industry that nobody is talking about. They are 
tremendous jobs. In fact, in my opinion, we have had more jobs 
created in this Country in the area of nuclear power than we 
have in windmills and solar.
    And for the benefit of my colleagues on this Committee, I 
would like to share with you a portion of a speech given by 
British Prime Minister Gordon Brown last week. The speech is 
entitled, Nuclear Energy and Proliferation. And I quote Brown's 
speech. He said, ``Because whether you like it or not, we will 
not meet the challenges of climate change without far wider use 
of civil nuclear power. Given the scale of global emissions 
reductions required and the like cost, no cost-effective low 
carbon technology must be off limits.''
    And the International Energy Agency estimates that we must 
build 32 nuclear reactors globally every year, every year, if 
we are going to meet the emissions standards that they have 
laid out for 2050.
    So he goes on to say, ``So however we look at it, we will 
not secure the supply of sustainable energy on which the future 
of our planet depends without a role for civil nuclear power.''
    Mr. Chairman, as you know, this is exactly the message that 
you and I have tried to convey to the Senate during the climate 
change debate last year. We conducted four roundtables in the 
last Congress to identify solutions to making the nuclear 
renaissance a reality in this Country. And I hope we continue 
this effort during this Congress through the formation of a 
Senate Caucus on Nuclear Energy. We have to do that if we are 
to continue to have this nuclear renaissance that I think is so 
necessary.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Voinovich, thank you so much.
    Our first panel of witnesses, I think you folks have been 
here once or twice before. It is good to see you again. We are 
grateful for your service and grateful for your preparation and 
participation today.
    Chairman Dale Klein will speak first, and be followed by 
each of his three colleagues, Mr. Greg Jaczko, Peter Lyons, and 
Kristine Svinicki.
    It is great to see all of you. Thank you for being here. 
Please proceed.

   STATEMENT OF DALE E. KLEIN, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Klein. Thank you, Mr. Chairman, Senator Vitter, and 
Members of the Subcommittee. Thank you for inviting me and my 
fellow Commissioners to appear before you today to discuss the 
lessons learned from the Three Mile Island nuclear power plant 
30 years ago.
    My written testimony provides some historical background on 
the accident, addresses the NRC's response, and outlines some 
of the regulatory improvements that have been implemented, and 
mentions one ongoing challenge.
    In my brief summary, let me just say that the NRC has come 
a long way in 30 years. We have an excellent team of highly 
competent staff who are very focused on the agency's mission. 
In fact, I should draw your attention to the results of the 
Office of Personnel Management's human capital survey of 2008 
which was reported in The Washington Post on March 13. The NRC 
ranked first in leadership and knowledge management; second in 
results-oriented performance culture; first in talent 
management; and just for the sake of completeness, let me also 
mention, first in job satisfaction.
    On the matter of Three Mile Island, let me assure you that 
the Commission has not forgotten about the accident that 
occurred there. Last week, we distributed to all Members of the 
Committee a recent paper by NRC's historian, Three Mile Island 
After 30 Years, which was developed as part of an effort to 
ensure that current and future NRC employees learn from what 
happened.
    In addition, the agency will hold a seminar tomorrow for 
NRC employees to explain what happened and what lessons the 
agency learned. A number of our presenters, including former 
Pennsylvania Governor Richard Thornburgh and former NRC 
Director for the Office of Nuclear Reactor Regulation Harold 
Denton, are participating at this hearing during the second 
panel of witnesses.
    One of the most important changes that has occurred over 
the last 30 years is an intensive focus on what we call a 
strong safety culture, both in industry and internally within 
the NRC. The agency's wide-ranging safety improvements include 
personnel training, internal processes and procedures, 
infrastructure and planning, technological upgrades, oversight 
and risk assessment methodologies, and safety culture 
expectations.
    The results of these efforts by the NRC and by industry are 
evident in the handout which shows in quantifiable terms the 
significant improvements in safety at nuclear power plants that 
have been achieved. And these are shown on two posters to my 
right and to my left.
    In addition to safety improvements, the agency has also 
implemented a variety of enhancements in the area of security, 
especially since 9/11. In recent years, the NRC has required 
increased patrols, stronger and more capable security forces, 
additional physical barriers, enhanced emergency preparedness 
and response plans, and many other heightened security 
measures.
    With all this, however, the NRC still faces one ongoing 
challenge, which is something that confronts every industry and 
every regulator that is concerned with safety. I am referring 
to the danger of complacency. Guarding against complacency must 
involve a rigorous and conscientious commitment to maintaining 
high standards of safety and security. That effort includes 
remembering the past, learning from where we have been, and 
ensuring that past mistakes are not repeated.
    This hearing contributes to all of these goals, and I 
appreciate the Committee's interest in understanding the 
lessons that have been learned and implemented at the NRC.
    To answer Senator Inhofe's question about efficiency, I 
should point out, and we can talk more of this, we are looking 
at Lean Six Sigma to make sure that we can be more efficient 
with no compromise on safety, and we can talk more about that 
as we go forward.
    Mr. Chairman and Members of the Committee, this concludes 
my opening statement. Thank you for having me and my colleagues 
today, and I look forward to your questions.
    [The prepared statement of Mr. Klein follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    
    Senator Carper. Chairman Klein, thank you for your 
testimony. Thank you for your leadership at the NRC as well.
    Commissioner Jaczko. Welcome, thank you. Please proceed.

     STATEMENT OF GREGORY B. JACZKO, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Jaczko. Thank you, Mr. Chairman. I also want to thank 
you for having us here today to discuss the lessons of the 
accident at Three Mile Island.
    I would like to focus on what I see as the larger lesson 
learned from this event, which, as the Chairman indicated, is 
the danger of complacency. Three Mile Island and Davis-Besse, 
which happened decades later, happened in large part because of 
complacency. There was a fundamental belief at the time of 
these accidents that they could not occur. The challenge that 
remembering Three Mile Island raises for us is the need to 
continue to work to minimize risks, never rest on success, and 
always be on the lookout for new information and for the 
unexpected.
    We did learn important lessons from Three Mile Island, and 
I would like to briefly mention three areas where tremendous 
progress has been achieved. Those would be in the areas of 
performance assessment, emergency preparedness, and 
enforcement.
    After the accident at Three Mile Island, we developed 
methods of measuring the performance of operating reactors and 
making our assessments accessible to the public. We first 
developed the Systematic Assessment of Licensee Performance and 
now have the Reactor Oversight Process, which was an 
improvement on the original systematic assessment of licensee 
performance.
    The ROP was developed to look objectively at licensee 
safety performance across three broad areas: reactor safety, 
radiation safety, and protection of the nuclear power plant. 
While I think the ROP is a very strong program for oversight, 
we must remember not to get complacent, but rather to look for 
opportunities to further improve how we assess plant 
performance, and in particular to continue to look at new ways 
to measure performance to ensure that we are truly getting an 
understanding of what safety is at any particular facility.
    Another area that I think has shown dramatic improvements 
directly from the aftermath of Three Mile Island is in the area 
of emergency preparedness. Following the accident, the Nuclear 
Regulatory Commission now works closely with the Federal 
Emergency Management Agency, with licensees, and with State and 
local officials from around the Country to better prepare and 
respond to any kind of incident at a nuclear facility.
    These programs and the partnerships between all levels of 
government built the foundation upon which all hazards 
preparedness work is done in this Country. And when the 
Commission talks about these issues with members of the public, 
we are often told by people who live in the communities that 
have nuclear power plants that their emergency preparedness 
initiatives are better than any other community because of the 
preparedness activities that they do with the nuclear power 
plant.
    Finally, I would like to turn to one area which I think was 
a very important change that came out of the Three Mile Island 
incident, and that was in the area of enforcement. Substantial 
changes were made in the NRC's enforcement authority, and I 
think this continues to be an important change in an important 
area as we continue to execute our mission of being an 
effective regulator.
    I would just like to close with a comment and a quote from 
one of the reports that was issued following the Three Mile 
Island accident. This is from the Rogovin report, which was a 
study that was commissioned by the NRC following the Three Mile 
Island incident. And it stated, ``Before March 28, 1979, an 
attitude of complacency pervaded both the industry and the NRC, 
an attitude that the engineer-designed safeguards built into 
today's plants were more than adequate, that an accident like 
that at Three Mile Island would not occur, and in the 
particular jargon of the industry, that such an accident was 
not a credible event.'' I think that the danger of complacency 
is as true for us today as it was in 1979, and true in the 
sense that those are the lessons and the things we need to keep 
our focus on as regulators.
    And briefly, then, if I could just add in response to 
Senator Inhofe's question, I think an area where we can improve 
the process for new reactor applications and one which I think 
the industry has made some comments to the agency about, is in 
trying to better prioritize the applications that we review, 
rather than the approach right now where we review all 
applications that come in based on when they come in. Perhaps 
we could take our resources and focus first on those 
applications that are most likely to be completed in the near 
term, and focus our work there to complete those, and then on 
the other applicants at a subsequent time.
    Thank you.
    [Mr. Jaczko's answers to questions for the record follow:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Mr. Jaczko, thanks so much for that 
testimony.
    Is it Dr. Lyons? It is, isn't it?
    Mr. Lyons. Yes.
    Senator Carper. Yes, Dr. Lyons.
    Is it Dr. Klein? It's not Dr. Jaczko, is it? All right. Dr. 
Svinicki? All right. One mere mortal among all these doctors. 
That's good.
    Senator Inhofe. Is it Dr. Carper?
    Senator Carper. No, I don't think so. I don't think so.
    All right. We have plenty of doctors here.
    Dr. Lyons, you are on. Thanks for joining us.

 STATEMENT OF PETER B. LYONS, COMMISSIONER, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Lyons. Thank you very much, Mr. Chairman, and thanks to 
all of you for holding today's hearing to discuss the 30 years 
of experience in applying the lessons learned from TMI. These 
vital lessons, fundamental to safe reactor operation, must 
never be forgotten if we are to maintain the hard-earned 
confidence of the American public and the safety of the 
Nation's nuclear power plants.
    I support Chairman Klein's testimony and I would like to 
offer just a few additional comments.
    Evaluating events and learning from them is a simple 
concept, but an enormous challenge. Until I studied the TMI 
event, I had not realized that virtually the same situation 
occurred at the Davis-Besse plant in September 1977. Then, the 
operators correctly diagnosed the problem. Unfortunately, 
information from that occurrence was never shared with TMI. If 
it had been and if the TMI response had duplicated the operator 
response at Davis-Besse, the Nation would not have experienced 
TMI.
    I visited TMI and discussed the event with Mr. Ed 
Frederick, who was a controller and operator during that 
accident. Prior to that visit, I believed that a simple 
explanation of operator error largely covered the event. But by 
hearing his explanation of the actions he took that evening, it 
became clear to me that the design of the control room and the 
instrumentation available to him dramatically limited his 
ability to comprehend the situation.
    After TMI, far more attention was given to the interface 
between operators and the reactor. Today's operators have a 
clear understanding of key plant parameters. After TMI, the 
operational experience program was strengthened, and the 
industry and the NRC thought that we had a solid program. 
Nevertheless, in March 2002, the cavity in the reactor vessel 
head at the Davis-Besse nuclear plant was discovered. Although 
this was a near miss and not an actual event, the magnitude of 
the cavity and the potential significance of that event again 
sent shock waves through NRC and industry.
    That corrosion also had precursors, such that the industry 
and the NRC, which were aware of this area of concern, should 
have been even more alert to the potential for that type of 
problem. Much like the event at TMI, Davis-Besse once again 
suggested that the NRC and industry failed to adequately use 
operational experience.
    Today, our operational experience program is a strong, 
solid contributor to reactor safety. Through discussions with 
operators at our plants, I am assured that the reports 
generated by our program are viewed as very important and taken 
very seriously. It is my hope and expectation that no future 
event will be partially ascribed to a failed opportunity to 
learn from our experiences.
    We have come a long ways from TMI. Safety at our nuclear 
plants has improved dramatically because of TMI and other NRC 
and industry initiatives. But the recent Davis-Besse incident 
shows that we must remain ever vigilant that the TMI lessons 
are never forgotten.
    Thank you, and I look forward to your questions.
    [Mr. Lyon's answers to questions for the record follow:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Thank you so much, Dr. Lyons.
    Commissioner Svinicki, welcome.

   STATEMENT OF KRISTINE L. SVINICKI, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Carper, Ranking Member 
Vitter, Senator Inhofe and Senator Voinovich, for the 
opportunity to appear before you at today's hearing.
    I support Chairman Klein's testimony as well, and add my 
voice to those of my colleagues in supporting the commemoration 
of this significant event in our Nation's nuclear history. 
Today's hearing and the seminar to be held tomorrow for all 
employees at the NRC are important opportunities for the 
community of nuclear safety professionals to pause, reflect on 
this historic event, and remain vigilant against technical 
complacency or overconfidence.
    Since I am one of the NRC employees who was not involved in 
the nuclear profession at the time of the Three Mile Island 
event, in preparation for this hearing I have studied a number 
of the written histories and other critical reviews. The 
President's Commission on the Accident at Three Mile Island is 
mentioned in Chairman Klein's written testimony. In developing 
its final report to President Carter on the event, that 
Commission took more than 150 formal depositions and 
interviewed an even larger group of individuals. At public 
hearings, it took testimony and collected documentary material 
that it estimated filled about 300 linear feet of shelf space.
    In analyzing all this detail, however, their strongest 
conclusions were sometimes startlingly simple. Among their 
conclusions was the following statement, which I would like to 
conclude by quoting briefly from their report. It is as 
follows: ``In the testimony we received, one word occurred over 
and over again. That word is mind set. At one of our public 
hearings, the director of NRC's Division of System Safety used 
that word five times in a span of 10 minutes.
    ``The most serious mind set is the preoccupation of 
everyone with the safety of equipment, resulting in the 
downplaying of the importance of the human element in nuclear 
power generation. We are tempted to say that while an enormous 
effort was expended to assure that safety-related equipment 
functioned as well as possible, and that there was backup 
equipment in depth, what the NRC and the industry have failed 
to recognize sufficiently is that the human beings who manage 
and operate the plants constitute an important safety system.''
    Chairman Carper, in my work at the NRC over the past year, 
I have found an organization of dedicated safety professionals 
who are ever mindful of this important fact, and who are 
committed to its enduring lessons.
    I thank you again for this opportunity, and I look forward 
to answering your questions.
    [Ms. Svinicki's answers to questions for the record 
follow:]
[GRAPHIC] [TIFF OMITTED] 

    Senator Carper. Commissioner Svinicki, thank you very much 
for your testimony and for your service.
    I would just say, before I ask a question, just an 
observation. This is a busy time for the Nuclear Regulatory 
Commission. This is a very busy time. You have 104 nuclear 
power plants that require your close supervision. A number of 
those plants are in the relicensing process to be relicensed to 
operate for another 20 years. I believe there are either 16 or 
17 applications to build maybe 26 or 27 new nuclear power 
plants. And you have a number of companies that have designed 
state-of-the-art nuclear power plants and have presented them 
to you for your review, to determine whether or not they are 
worth going forward with. I mean, that is a lot. That is a lot.
    You have a great agency. It is well known and regarded as 
one of the best places for people in the Federal Government, 
and probably in any place in this Country. I think you can be 
justifiably proud of that.
    Chairman Klein, in your testimony you warn against the 
dangers of complacency when it comes to nuclear safety. I have 
said as much. Others here have said as much. Other 
Commissioners have repeated this theme to us. This is not a 
time to rest on our laurels. Great progress has been made since 
that day almost 30 years ago, but obviously we have to guard 
against complacency, and frankly, we can do better.
    You say that overconfidence was a factor in the Three Mile 
Island accident and in the more recent Davis-Besse episode. How 
are you ensuring, you are you, Mr. Chairman, Commissioners of 
the NRC, how are you ensuring that your new generation of 
employees, folks who weren't around, at least not with NRC, 30 
years ago, but many of which are new, how do you ensure that 
they too guard against complacency, particularly when it comes 
to safe operations?
    Mr. Klein. Well, Mr. Chairman, we have a large program that 
reminds people about their self-responsibility and their 
importance. We do that every time we give our speeches. We do 
it in training. We do it in our knowledge management catch-up 
program. And so we demonstrate by our actions that we believe 
what we say and that they should always be vigilant.
    We also have a rotation program where people are able to 
rotate within the agency. That challenges them so they don't 
get locked into one mind set, as Commissioner Svinicki had 
indicated. So what we try to do is continuously reinforce the 
importance not only to our employees, but also to the 
licensees, that every individual has the authority they need to 
carry out their assigned tasks, and we monitor and maintain and 
check that.
    Senator Carper. OK. You may have said this, but I want to 
ask specifically, how are you bridging the education gap 
between the older generation at the NRC and the newer 
generation of employees?
    Mr. Klein. A lot of our individuals who have retired still 
want to work, they just don't want to work the 80 hours a week 
that sometimes it seems like they do. So they come back and 
they are training this next generation. And we basically have 
an entire cadre of people that are making sure that we keep our 
best practices and our best techniques available.
    Senator Carper. Good. I understand that the NRC is again 
looking at new license applications, similar to the time up to 
Three Mile Island. I think there were a lot of applications in 
at that time as well. But how is the NRC making sure that we 
don't take our eye off of our current fleet of 104 nuclear 
power plants, while preparing for what we hope and expect will 
be a new fleet in the years to come?
    Mr. Klein. Mr. Chairman, I think one of the ways that we 
did that was fundamentally in our structure. We created an 
Office of New Reactors, separate from the Office of Nuclear 
Reactor Regulation, so that individuals in the one division 
understand very clearly their role is to monitor and maintain 
those 104 plants that are running today. That is their full-
time responsibility, so they don't get distracted with the new 
reactors that are underway.
    So we created two divisions, one which looks at the new 
reactors; one which looks at the existing fleet.
    Senator Carper. And do you feel, two questions, do you feel 
that the new license process is effective? Do you think you 
have enough resources, employees to meet all these jobs that 
you are asked to take care of?
    Mr. Klein. Well, Senator Carper, I appreciate yours and the 
Committee's support on giving us the finances we need to make 
our decisions to protect the American people, to ensure that 
these plants are safe and secure. And I believe that we do have 
a work force that is adequate to carry out that mission. We 
work at it very hard. In 2007, for example, we hired 441 
people, for a net gain of 219. Sixty percent, six zero, were 
women and minorities. And so we have a very aggressive 
recruiting campaign. We have gotten very talented individuals, 
and I believe we have the resources that are necessary for us 
to do our job.
    Senator Carper. All right. And a question for Commissioner 
Jaczko, and then I will yield to Senator Vitter.
    But let me go back to the issue of transparency and 
miscommunication that were problems during the Three Mile 
Island accident, and just ask, how has the NRC improved, made 
improvements in those areas? And what do you think we could do 
better? What do you think the NRC could do better?
    Mr. Jaczko. Well, I think some of the areas where we have 
made real improvements in transparency in particular, as I 
mentioned in my initial statement, is in the area of emergency 
preparedness. We have much more clearly defined plans for the 
plants. We exercise those plants in a significant way, with the 
local communities, so that provides a much better avenue for 
communication. Because one of the areas of tremendous 
challenges for information flow during the accident was what 
exactly the response needed to be to deal with the evacuation, 
and who needed to be evacuated, and in what time.
    So I think there have been a lot of improvements made in 
that area in particular, where we have established better 
processes and better exercise those processes now so that 
begins to share information.
    We just fundamentally live in a much different world now, 
where information flow is much easier than it used to be, with 
the Internet, with outreach to individuals. We have a much, I 
think, more transparent program. I guess I would just finally 
add that the new oversight program that we have is also much 
more geared toward transparency and geared toward providing 
more information to the public about what the status is of any 
particular power plant or any particular facility that we 
regulate.
    So I think those are some of the specific areas where we 
have made real progress in the area of transparency.
    I think one area that we can make improvements on, and it 
was an item that was addressed, I believe, in the Kemeny 
Commission report, and that is to continue to improve on our 
ability to communicate in plain English, I guess is the phrase 
we like to use, where we are communicating complex technical 
information in a way that the public can understand without 
necessarily having a background in nuclear engineering or 
nuclear science.
    So that's an area where I think we could continue to 
improve, and that probably means more training and continuing 
to train our individuals, not just in their technical 
expertise, but in how to communicate that to an audience that's 
not technically educated.
    So I think those are some areas where we have done well and 
where we can work on getting a little bit better.
    Senator Carper. Good. Thanks for those responses.
    I think I have consumed 7 minutes. Let's just say each of 
our colleagues have 7 minutes.
    Senator Vitter, you are up next.
    Senator Vitter. Thank you, Mr. Chairman.
    This is to anyone who cares to answer. Could you give any 
specific examples since Three Mile Island, not so much Three 
Mile Island, but since then, of how operating experience has 
improved plant operations today, including your guidelines for 
that?
    Mr. Klein. Senator Vitter, I think there are a lot of 
examples that we have that can demonstrate that. I think one of 
those is the sharing of information. It is much more openness 
between the industry and among the industry. I think the 
creation of the Institute of Nuclear Power Operations has 
helped to share good practices and good techniques, and also 
bad practices and bad techniques, so those are not repeated.
    So I think communication is an area that we have really 
improved on. The success rate, as seen by these two charts, 
demonstrates that we cannot become complacent, but the trends 
are positive.
    Senator Vitter. Yes, sir.
    Mr. Lyons. Senator Vitter, as the Chairman said, there 
could be a number of examples, but if I can give you just two.
    One would be an issue that occurred several years ago in 
cracking of dissimilar welds at the Wolf Creek Plant. That has 
led to a concerted effort that the NRC has carried out with 
industry to evaluate any potential for such cracks at other 
plants. That would be one example of how operational experience 
is being used directly to improve safety today.
    If I could give you one other example, which is sort of a 
cross between operational experience, as well as addressing 
questions on complacency. There is now in the lobby of the NRC 
a model of the Davis-Besse cavity, the corrosion cavity that 
occurred in the vessel head. It is not only a constant reminder 
to our staff of the need to avoid complacency, but also an aid 
in operational experience of the importance of being ever 
conscious of the concern for corrosion.
    So those would be two examples.
    Senator Vitter. Great. Thank you very much.
    Again, this is to each of you, and I would love each of you 
to give at least a brief response. A lot of folks have 
suggested, broadly speaking, that in the U.S. we should have 
more standardization within our nuclear industry of design and 
operation. What would your comment be on that with regard to 
both safety improvements and efficiency improvements, 
particularly in getting new plants online?
    Mr. Klein. Senator Vitter, I think all of us have commented 
at one time or another that standardization is very important. 
When I talk to the industry, and I talk about standardization, 
I want the walls to even be painted the same colors. And we 
really do need to standardize. It would make our job as a 
regulator easier, and it would make lessons learned easier for 
the industry. And the industry is moving in that direction. We 
have several different vendors, but within each vendor we 
expect standardization.
    Mr. Jaczko. If I could add, and I certainly agree with the 
comments of the Chairman. I would perhaps just expand that a 
little bit by saying that I think standardization is certainly 
an enhancement for efficiency, and ultimately in the end can 
allow us to deal with generic issues, generic safety issues 
that may arise, in a more straightforward manner, because we 
don't have to tailor the solution to 104 unique plants, which 
is what we find ourselves in with the situation today with 
several generic issues that we are wrestling with, that the 
solutions are so unique and so specific to each plant that it 
consumes a tremendous amount of resources to have to analyze 
those individually. So there is, I think, an enhancement, 
certainly from the safety perspective.
    I think the biggest challenge is how we actually achieve 
that. We don't impose standardization as a safety requirement. 
We encourage it, and we encourage it very strongly right now 
because if the designs that we are reviewing are not truly 
standardized, we simply won't have the resources to review all 
the applications that we have in a timely manner. So that has 
been a good incentive from the licensing review perspective to 
get standardization.
    The challenge will be if plants are licensed and then 
built, how we maintain standardization among different 
utilities that may all have a similar design. That is not a 
requirement that we have, as I said, from a safety perspective, 
so that is where it will be much more incumbent upon the 
industry to police that initiative themselves, to ensure that 
plants that were licensed the same are operated and ultimately 
modified in the same way as we go forward, so that we don't 
branch out and modify them in unique ways in the future.
    Thank you.
    Mr. Lyons. I certainly agree with the comments made by each 
of my colleagues. Standardization is very, very important. It 
is important not only to the regulator, but also to industry. 
We can be more efficient. We can better assess safety issues 
across the fleet. I concur with Commissioner Jaczko that the 
main way that we can encourage standardization is when we tell 
industry that if you standardize, we can be far more efficient 
and effective in our reviews of your application. That is the 
main tool we have toward standardization, and maintaining 
standardization, as my colleague said, is also vital.
    Thank you.
    Ms. Svinicki. Senator, I know you don't have much time for 
questions if you get four answers to each, but I agree with my 
colleagues. Clearly, standardization holds the potential of a 
lot of increases in efficiency. The timeframes for review that 
Senator Inhofe was talking about, more standardization allows 
us as a regulator to capture the efficiencies in those reviews. 
And also as Commissioner Jaczko said, it has an enduring 
benefit as new reactors would be added to the current fleet. 
Standardization would continue to provide efficiencies for us.
    Thank you.
    Senator Vitter. Let me end with this follow up question. 
Given all of your answers, shouldn't we or you or both of us 
consider actually mandating more standardization than we do at 
present?
    Mr. Klein. Well, Senator Vitter, I think the industry has 
the message. I think we as regulators have the message. In the 
United States, we support the concept of free enterprise. It 
was easier for France to standardize when they had one vendor 
and one utility. We have multiple vendors and multiple 
utilities. And so, I think the way we will encourage 
standardization, as opposed to mandate it, is by the review 
process. If someone comes in with a non-standard design, it 
will take us a very long time to look at it.
    Senator Vitter. That is all, Mr. Chairman. Thank you.
    Senator Carper. Good questions.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first of all kind of go back a little ways. I am one 
of the few who actually remembers Three Mile Island and all the 
hysteria and the public clamor that came out of that thing. 
Would you, Chairman Klein, describe to us any public health 
impacts that resulted from that accident 30 years ago?
    Mr. Klein. Well, Senator Inhofe, I think the concern that 
people typically have is concern about cancer. And there is no 
data that shows there has been any negative impact of cancer 
from that accident.
    Senator Inhofe. Is there any data that shows that there was 
any resultant public health impairment as a result of that 
accident?
    Mr. Klein. No evidence of that, Senator Inhofe.
    Senator Inhofe. You know, I think that's significant, 
because you talk to most people and they don't realize that. 
They assume that. And yet, I would have to say, and I think 
that each of you in the Commission would agree that because of 
that incident 30 years ago, that did retard our efforts to move 
forward with nuclear energy. And I wonder, any thoughts about 
where we would be today if that had not happened?
    Mr. Klein. You know, that's a difficult question. One could 
speculate about that, but as you indicated, I think Three Mile 
Island should have shown that the safety systems were fairly 
robust, and that there were no negative health impacts. But 
certainly the public confidence was shaken, but that also 
occurred at the same time that we were undergoing a transition 
into reduced baseload demand of electricity. So there were, 
after Three Mile Island, there were a lot of coal-fired plants 
that were canceled as well due to the lower baseload demand.
    But my guess is that had Three Mile Island not occurred, we 
would likely have had more reactors today than we have.
    Senator Inhofe. Well, and we didn't anticipate back at that 
time 30 years ago that we would be having the energy problems 
that we have today. I mean, here we are with 20 percent of our 
energy coming from nuclear and some of the Western European 
countries, France, I believe is 80 percent.
    I have never heard anyone talk in any of these hearings 
about the performance of whatever the counterpart is called in 
one of these other countries like France. Are they going 
through about the same things that we are right now, even 
though they are way in advance of us? Are they as concerned 
with safety? Are they concerned with the same concerns that you 
folks have? How do you compare us to them?
    Mr. Klein. I think, Senator, if you look at the performance 
of the plants, in general our plants perform better than a lot 
of countries. I believe that as the regulatory body, we are 
still viewed as the world's best regulator. We have more 
people, a lot more technical details. But we also have things 
we can learn from other countries, and so we share.
    We have a very large international program where we try to 
share information among various regulators. And I know that 
Andre Lacoste, the head of the French regulator, is also going 
through and trying to beef up their regulatory capabilities.
    But I think for most countries, they are similar. I think 
our job as a regulator in an international arena is to share 
best practices worldwide because, as we learn, even though we 
have no reactors like Chernobyl in the United States, there was 
still a lot of uncertainty and apprehension from Chernobyl. So 
we need to be proactive in the international community.
    Senator Inhofe. Mr. Lyons.
    Mr. Lyons. Senator Inhofe, France certainly has a very 
strong safety regulator, a very effective one. But I think it 
is interesting to note that within the last, I would say, 2 
years there have been legislative changes within France that 
have moved their regulatory system much closer to ours, in that 
their regulator now has a substantially greater degree of 
independence, and basically is now an independent regulator, as 
we are, and in addition has mandates for transparency and 
public information.
    If I were to look across the world, I think that two 
important trends would mirror what has happened in France, that 
more countries are recognizing the importance of an independent 
regulator, of strong public input, and public information as we 
have. In addition, a quest that I would say that we have been 
on in many of our international discussions, is to encourage 
more countries to look at both safety and security as two 
integrated functions, two very important integrated functions. 
Many countries handle these completely separately.
    Senator Inhofe. You know, I hesitate even getting into the 
thing on the 5 years that it takes the NRC, as indicated to 
this Committee, that it takes about 5 years reviewing new 
reactor designs before granting certifications, because safety 
is the most important thing. I understand that.
    Commissioner Jaczko, you said when I was saying, you know, 
if there is a way that we could reduce that 5 years down, move 
a little bit faster, you talked about prioritizing 
applications. I would like to ask each of you in my time 
remaining of any ideas you might have that might shorten that 
5-year period of time and maintain the same level of safety 
that we enjoy today.
    I will start with you, Commissioner Svinicki.
    Ms. Svinicki. Senator, one of the practices that Chairman 
Klein brought from the Pentagon was referred to as Lean Six 
Sigma, which is a process whereby our staff has gone through 
and looked at all of the procedural steps for reviewing these 
applications. The Commission has received some suggestions from 
the staff of how to better coordinate their internal work and 
the coordination that needs to occur between offices. So they 
are looking at it, Senator, if they could take some months off 
of that process. The Commission has received some 
recommendations that we are looking at now.
    Senator Inhofe. Good, good.
    Mr. Lyons.
    Mr. Lyons. Senator Inhofe, at least one suggestion I would 
make would be the hope that industry in the future could follow 
more directly the path that we anticipated when Part 52 was 
created. We anticipated that a site would go first for an early 
site permit, that they would be using a certified design, and 
only then would be going for the construction and operating 
license. I believe it is correct that no licensee, no applicant 
right now is following that exact path. There certainly are 
other areas where we can look for efficiency, but having that 
process followed would help us.
    Senator Inhofe. I see.
    Commissioner Jaczko.
    Mr. Jaczko. Well, as I talked about, I think the area of 
prioritization, as Commissioner Svinicki mentioned, the staff 
has talked about areas where we could improve our review a 
little bit, but we are talking about months perhaps. And the 
biggest challenge that I see right now is really getting the 
design reviews completed. And for most of the designs that we 
have right now, there are some challenges in getting those 
reviews completed.
    So once we can have that completed, the licensing review 
will be a much more straightforward process. But right now, 
there are challenges, I think, with getting the design review 
complete. And as I said, I think our focus would be better on 
taking a few, maybe a smaller number of those designs and a 
smaller number of licensees or applicants, focusing on getting 
those through the process once, demonstrate how it will work 
effectively, and then turn to the other applications.
    Senator Inhofe. So we would effectively be getting them 
online faster by doing that, but not as many of them.
    Mr. Jaczko. Not as many.
    Senator Inhofe. Yes.
    Chairman Klein, any last comments on that?
    Mr. Klein. Well I think, Senator Inhofe, on the design 
certifications, those are fairly unique. One thing I have 
learned is that a good application takes less time than an 
incomplete one. And so it is a two way street, I think. I think 
industry needs to give high quality applications and we need to 
be responsive in the review of that application.
    I think on the license applications, once we go through a 
few of those and we practice the Lean Six Sigma activities, I 
think we will become more efficient with no compromise on 
safety.
    Senator Inhofe. Good.
    Thank you, thank you, Mr. Chairman.
    Senator Carper. You are welcome. Thank you.
    Senator Voinovich.
    Senator Voinovich. Mr. Chairman, I would be remiss if I 
didn't say a few words on the Davis-Besse incident, because 
that facility is located in the State of Ohio. I was Chairman 
of the Subcommittee when that occurred, and as I said in my 
opening remarks, we took the NRC to task, as well as First 
Energy. We devoted three oversight hearings to follow up on the 
NRC's corrective actions stemming from the GAO and inspector 
general reports.
    We also met with Nils Diaz, the NRC chair at the time, and 
Ed McGaffigan privately on a quarterly basis to get updates. It 
took a little while and some pushing, but I was pleased to see 
NRC formally incorporating safety culture into its inspection 
and regulatory oversight process.
    As you all know, we are trying to launch the nuclear 
renaissance in this country. We need to get into it for 
reducing, providing baseload energy. We need it also to meet 
the emissions caps that we will be seeing probably with new 
legislation being passed to deal with climate and global 
warming. And also it is an area of large job creation.
    But I still run into people out there that are saying, 
well, what about safety? What about the security of these 
plants? Aren't they, you know, vulnerable right now to 
terrorist attack? That is one thing. Then you hear another 
story out there about all this nuclear waste that is all over 
the United States being held in dry and wet storage, and how 
safe is that stuff?
    And also, if something would happen, you know, what kind of 
insurance do they have? They have no idea about Price Anderson 
and the way the insurance if something would happen. All of the 
insurance carried by all of the 104 would be used to deal with 
a situation.
    And I still think, and it is a complaint I have, is that 
you are not doing a good enough job getting information out 
there in the country. There is still a lot of stuff that is 
floating around, and these same people that are out there, you 
know, talking about this are the ones that are standing in the 
way of our moving forward right here in Congress in some areas 
that we should be going forward with.
    I would be interested in your commenting on these.
    Mr. Klein. Well, Senator Voinovich, I believe that as an 
agency, we can be more proactive on education. We have to walk 
that fine line, as Senator Carper indicated. We have to 
remember we are the regulator, and not a promoter.
    I would like to see the Department of Energy be more 
proactive in their roles and responsibilities. The area of 
communication, though, is one in which I believe the NRC can do 
better. I think we would like to modernize our Web sites so 
that we become the site of first choice if someone has a 
question.
    As Commissioner Jaczko indicated, we do need to train our 
individuals to communicate clearly and succinctly. As I 
oftentimes say, I am an engineer, so if you ask an engineer 
what time it is, they will tell you how to build a watch.
    So I believe we can do a better job on communication and we 
are working on it.
    Senator Voinovich. How about the whole issue of the nuclear 
waste that we are generating, and the fact that we continue to 
have it located in dry and wet storage, and people are 
concerned about that all over the Country? What do we say to 
them about that? How long can that last?
    Mr. Klein. Dry cask storage is safe. We license those 
facilities. We currently have made a determination that we can 
safely secure and store that material onsite for as long as 100 
years. But as a Nation, it would be good to come forward with a 
long-term waste solution.
    For us, as a regulator, we make sure that the dry cask 
storage is done safely, properly and securely. As you know, we 
have the application before us for the Yucca Mountain site. We 
by law are required to look at that application and we will do 
that in a very effective manner, depending on the resources 
that we have available.
    Senator Voinovich. So what you are saying to me and saying 
to the public is that the current way of holding that waste at 
the facilities around the Country is safe. And second of all, 
that there is some extended life in terms of it being stored in 
that fashion. Because most people today believe Yucca ain't 
going to happen, and so there is a concern about that. And some 
of us are considering doing something as an alternative to 
that.
    So you are telling me and telling the public that the waste 
that is out there today being stored in dry storage is safe, 
and that we can continue to do this for some time in the future 
without being concerned about it?
    Mr. Klein. Yes.
    Mr. Jaczko. Senator, if I could add, the NRC did a study 
about dry cask storage several years ago, and that study found 
that the risks from any of the spent fuel, particularly in dry 
cask storage, was about a million times less than the risk from 
the power plant itself. So what you often find is communities 
that are very accepting of the power plant, may have concerns 
about the waste. And in fact, I think the waste, we have shown 
through our analysis, is much, much, much less of a risk.
    So I think that is a message that we can communicate. I 
think the licensees themselves can do a better job 
communicating that message as well in the communities that do 
have facilities, about really what the areas of focus from our 
perspective really should be from a safety standpoint.
    Senator Voinovich. And also security.
    Mr. Jaczko. And security as well.
    Senator Voinovich. In terms of, you know, terrorist attack, 
you hear that. Oh my goodness, if something happens there that, 
you know, we will have calamity.
    Do you want to comment on that, the security aspect of 
this? We are talking about safety and security.
    Mr. Jaczko. Senator, the Nuclear Regulatory Commission has 
one of the most longstanding programs in security. It goes back 
to the 1970s, our ideas of how we deal with facilities and deal 
with security. And I think the agency was in a very good 
position, in particular, following September 11 because we had 
a well established program, that we were able to quickly make 
changes, make modifications to deal with that new issue.
    We have a very rigorous program right now where we do 
exercises at facilities on an ongoing basis to test their 
security programs. We have put in place new requirements for 
the existing fleet of reactors to ensure that they can mitigate 
the effects of any kind of 9/11 type incident. And we put in 
place very strong requirements for new reactors to ensure that 
they will be able to deal with some of the 9/11 type incidents 
and things that could happen in the future.
    So I think we have a very robust program in security. We 
are continuing to make that better. We are continuing to 
improve our communication in our work with other members of the 
Federal family, including the Department of Homeland Security, 
the FBI, to ensure that we have security covered from all the 
different angles, whether it is from the facility itself, 
whether it is from responding to an event at a facility, or 
developing the emergency preparedness and training and 
interface that is necessary to successfully deal with an 
incident.
    Senator Voinovich. Thank you.
    Ms. Svinicki. Senator, if I could just draw together your 
last two questions on communications and security. I would like 
to add that one of the unfortunate outgrowths of the enhanced 
security at reactors post-9/11 is that so many had to close 
their visitors centers and their information centers. As I 
visit reactor sites now, I often notice that along the 
roadside, the entrance to the plant, they have large signage 
for a visitors center with a big placard across it that says 
now closed to the public.
    I am heartened that some of the new reactor applicants are 
considering how they are able to site some sort of public 
information center that they can put far enough away from the 
reactor at new sites so that they could once again be 
communicating with the public.
    Senator Voinovich. Thank you.
    Mr. Lyons. If I could just suggest, Senator, that one way 
of perhaps reinforcing in the public's mind the safety and 
security of dry cask storage, and this would be something that 
industry could do, would be to make some of those casks 
available for public inspection.
    I think anyone who has had the opportunity to view those 
casks, to simply stand beside them, realizes the number of tons 
of concrete and steel that are in those things. I think they 
would develop a very healthy respect for both the safety and 
security of dry cask storage.
    But I also agree with your point and I personally hope that 
the Congress would be looking toward development of a long-term 
spent fuel policy that would give the American public a clear 
view of where we would be going far into the future.
    Senator Carper. Senator Voinovich introduced me to the 
concept of roundtables, as opposed to committee hearings, 
several years ago. And I like them a lot, and we are going to 
hold a roundtable in Cambridge, Massachusetts on Monday 
morning, May 18, and invite some very smart people up there to 
come and share with us what they know about spent fuel.
    We talk about it as nuclear waste, but actually I 
understand there is a fair amount of energy still unrealized 
and unextracted from this spent fuel. So we are going to find 
out their ideas, hear a little bit about what is going on in 
other places around the world, and tape the brains of some 
very, very bright people, and also have an opportunity to bring 
in maybe a person or two to talk with us about clean coal and 
sequestration of CO<INF>2</INF>.
    The responsibility of this Subcommittee is dual in purpose. 
One is clean air, and the other is nuclear safety, and they are 
related, but we want to make sure we have an opportunity while 
we are there that morning, and my hope is that Senator Vitter 
and Senator Voinovich and others on the Subcommittee, Senator 
Merkley, can join us for that time.
    All right. Speaking of Senator Merkley, he has joined us 
here, and we are delighted you are here. He is not a new Member 
anymore. He is an old veteran, and we are happy he is here, and 
welcome to our hearing.
    Senator Merkley. Thank you very much, Mr. Chair.
    And thank you for your testimony. I will just have a couple 
of quick questions. One is, I believe that there are some 
facilities that still have nuclear rods stored in pools, 
whether they are in dry cask. But if you could just kind of 
characterize, if you could, the amount of storage that is still 
done, wet storage if you will, and does that pose greater 
risks, and is there a strategy for moving to a dry cask system?
    Mr. Klein. All nuclear power plants use wet pools. In fact, 
we require the ability to offload the entire core of a reactor, 
if need be, into the adjacent spent fuel pool that is in water.
    So every commercial reactor that is running has a wet pool. 
They typically want to utilize that one first, and then they 
only go to dry casks once that wet pool is filled. Both are 
safe.
    Senator Merkley. And why is it they want to utilize the wet 
pool first?
    Mr. Klein. It was a part of the initial design. That was 
the initial concept. It also has decay heat removal, so you 
will remove the decay heat from the spent fuel for several 
months before you would ever consider putting it into dry casks 
for decay heat removal.
    Senator Merkley. I had the experience a few years ago of 
being up at Hanford, and walking on the metal grating on top of 
a pool. And it is a strange feeling, with the nuclear rods down 
at the bottom. And I asked the question, well, what happens if 
an earthquake comes through here and this water is lost? And 
the answer was just summarized as, well, that would be bad.
    But could you kind of give us a better sense of kind of the 
safety issues related to the wet pool storage?
    Mr. Klein. Well, Senator, as you might expect, all of those 
facilities have to meet earthquake requirements. They typically 
are robust. There are very thick walls. Some have liners. And 
so in the event that there could be a crack in that pool that 
water would leak out, and again these are very thick pools, 
several feet of concrete, it is important that the plant has 
the ability to quickly add water.
    Senator Merkley. Turning to another safety issue, in terms 
of the dry cask above-ground storage, are there issues there 
related to potential terrorist actions? What happens if a dry 
cask is blown up in terms of radioactivity in nearby areas? Is 
there a terrorist risk? How do we address it?
    Mr. Klein. Well, Senator, we have analyzed the terrorist 
risk on those dry casks. You know, there are a lot of factors 
that go into that, much of which we can't say publicly, but we 
have analyzed a lot of what if scenarios, what kinds of 
attacks, and how they might occur. These are very robust 
canisters, and so we believe that from all of our analyses that 
it is a minimal risk.
    Senator Merkley. Thank you.
    Senator Carper. Thank you, Senator Merkley. Thanks for 
joining us.
    Let me just conclude as this first panel wraps up, with a 
couple of thoughts. One point I made earlier, folks at the 
Nuclear Regulatory Commission are busy these days, very busy. 
You are always busy, but especially these days, saying grace 
over the safe operation of 104 active nuclear power plants; 
relicensing probably I think a couple dozen of them right now; 
reviewing the applications for I think 26 or 27 new nuclear 
power plants which could be built in the years to come; and 
examining carefully, closely the new designs for nuclear 
reactors that are being presented to you. And you are doing it 
all at once.
    And trying to provide a good working environment for 
people, and providing diversity in your work force. That is a 
lot. That is a lot to do well. It is a lot to manage. And we 
are counting on you to continue to do that work and to do it 
well. It is important. Our Nation needs safe nuclear energy as 
much now as we ever have.
    I have been reminded several times in this economic 
calamity that we are going through in the last year or so, 
especially the last several months, of the words of Franklin 
Roosevelt, who said to the American people a long time ago, 
``We have nothing to fear but fear itself.''
    We have, oh gosh, earthquakes to fear. We have terrorist 
attacks, I suppose, to fear. We have most I think to fear 
complacency, complacency. If we think that, oh, we have come a 
long way, we haven't had an accident, a major incident for all, 
lo, those many years. We have done a much better job in terms 
of raising the operating capacity to realize more nearly the 
full capacity of the generation of electricity by these nuclear 
reactors. We have come a long ways in the last 10 or 20 years.
    Here is what we have to fear. We have to fear complacency. 
To sit back and rest on our laurels, that would be the worst 
thing that could happen. This is a time to remain vigilant. 
Several of you have used that word, vigilant. And this is 
indeed a time to remain vigilant. And if we do, then the future 
for nuclear energy in this Country, along with it the prospect 
of cleaner air, the prospect of less dependence on fossil 
fuels, the prospect of maybe even smaller trade deficits is 
actually enhanced.
    So all that would be great news for our Country, which 
right now needs some great news.
    All right. That is it for this panel. Again, our thanks to 
each of you for your service, for being with us today. We will 
provide probably for the record some additional questions. We 
will ask that you respond to those promptly.
    Thank you so much.
    Mr. Klein. Thank you for your support.
    Senator Carper. You are quite welcome.
    Gentlemen, welcome, one and all. We are delighted that you 
are here. We are very much looking forward to your testimony. 
It is great to see some of you for the first time, and to be 
able to welcome others back. Thank you for joining us today.
    Just a real short review of your bios, and we will start 
with Hon. Peter Bradford. Mr. Bradford was an NRC Commissioner 
during the Three Mile Island accident, served at the age of, 
what, 12, I think he told me? He was 12 years old at the time. 
Today, he is an Adjunct Professor from the Institute for Energy 
and the Environment at the Vermont Law School. Welcome.
    Is it Dr. Bradford? Yes, it is. Thank you.
    He is a former Chair of the New York and Maine Utility 
Commissions and has advised many States on utility 
restructuring issues and he is also on the board of the Union 
of Concerned Scientists. I think in reading Governor 
Thornburgh's testimony, I think he alluded to calling on the 
Union of Concerned Scientists to help out during the time that 
that was most helpful.
    Mr. Harold Denton, it is great to see you, sir. I read all 
about you in Governor Thornburgh's testimony and the kind of 
role, the key role that you played all those years ago, 30 
years ago. And I understand you were onsite directing NRC's 
staff activities and served as the Federal Government's 
spokesperson for the Three Mile Island accident. You were also 
the first, in the first group of Americans allowed to visit the 
Chernobyl site. And after retiring from the NRC, you consulted 
on other nuclear safety matters and retired and currently live 
in Knoxville, Tennessee, where my wife went to graduate school.
    Welcome. We are glad you are here.
    Governor Dick Thornburgh, Governor Thornburgh was Governor 
of Pennsylvania for, what was it, 72 days or so before this 
incident?
    George, can you imagine that? Senator Voinovich, a former 
Governor like you imagine being Governor of Ohio or Governor of 
my State of Delaware and having something like this dropped on 
you 72 days into your first term. That would be quite an 
experience.
    But not only, I call guys like you and Senator Voinovich 
and me recovering Governors, but not only are you a recovering 
Governor, but you had a public career spanning some 25 years, 
including Attorney General for not one, but two Presidents, and 
currently of counsel to the national law firm of Kirkpatrick 
and Lockhart here in Washington, DC.
    Thanks for joining us.
    Finally, Dr. Marvin Fertel. Mr. Fertel is President and 
Chief Executive Officer of the Nuclear Energy Institute, with 
35 years of experience consulting for electric utilities.
    We are delighted that you are all here. We would ask you, I 
have read your testimony, wonderful testimony. We would ask you 
to try to limit your comments to about 5 minutes.
    Mr. Bradford, I think, has to leave around 12:30. We have a 
Caucus luncheon that starts just after that, so we will try to 
get us out the door close to that time. But Mr. Bradford, if 
you need to leave right at 12:30 and we are not quite done, 
feel free to slip out. But you go first, and we are just 
delighted that you are all here. Thank you so much for coming.

 STATEMENT OF PETER A. BRADFORD, ADJUNCT PROFESSOR, INSTITUTE 
       FOR ENERGY AND THE ENVIRONMENT, VERMONT LAW SCHOOL

    Mr. Bradford. Thank you very much, Senator Carper. I 
apologize to you and my fellow panelists for the scheduling 
constraint. The consolation I can offer Governor Thornburgh is 
that I am inconveniencing him less this morning than I did on 
the morning we were on opposite ends of the phone line between 
Washington and Harrisburg 30 years ago.
    I appreciate the opportunity to reflect on the lessons of 
Three Mile Island. With all of the interest in new nuclear 
power reactors in the U.S., as well in extending the licensed 
lives and increasing the output of the existing plants, getting 
the lessons right is crucial, just as important as not learning 
the wrong lessons.
    The principal conclusion of the Kemeny Commission was, 
``After many years of operation of nuclear plants, with no 
evidence that any member of the general public has been hurt, 
the belief that nuclear power plants are sufficiently safe grew 
into a conviction. This attitude must be changed to one that 
says nuclear power is by its very nature potentially dangerous, 
and therefore one must continually question whether the 
safeguards already in place are sufficient to prevent major 
accidents.''
    The Kemeny Commission also found, ``That the NRC is so 
preoccupied with the licensing of plants that it has not given 
primary consideration to safety issues.''
    Occasional mishaps in the 1980s and 1990s notwithstanding, 
the NRC and the industry made many significant improvements 
after the accident at Three Mile Island. Then at the Davis-
Besse Plant in Ohio in 2002, complacency and excessive concern 
for the finances of the power plant owner very nearly cost them 
all the ground that they had gained.
    Davis-Besse had received the NRC's highest safety ratings 
throughout 2001, even as boric acid was eating away the reactor 
vessel head. Only a three-eighths of an inch thick steel liner 
performing a function for which it was not designed avoided a 
hole in the pressure vessel, an event not analyzed in NRC 
licensing because it was considered impossible.
    Among the lessons of Three Mile Island is that nuclear 
power is least safe when complacency and pressure to expedite 
are highest. A key corollary to this lesson is the importance 
of congressional oversight, emphasizing that safety must be the 
NRC's highest priority.
    Of course, this goal is always stated verbally, but at 
times the message has been mixed. Senator Pete Domenici wrote 
that he changed the NRC's priorities in a 1998 meeting with the 
NRC Chair in which he threatened to cut the agency's budget by 
one-third if the NRC did not modify its adversarial attitude 
toward the industry.
    If, when the NRC regulates seriously, it is hammered for 
delay or indifference to cost, as the NRC was in the weeks 
before the Three Mile Island accident, that message will have 
an impact. Today's hearing can be a very useful antidote to the 
dangers that lie on that road.
    Finally, avoiding the wrong lessons is as crucial as 
learning the right ones. An oft-repeated Three Mile Island 
story line goes something like this. ``The most important 
lessons is that the safety systems worked as intended. 
Interveners exploited the accident to tie up nuclear reactors 
in interminable and costly hearings. These problems have 
largely been solved. If Congress will further streamline the 
licensing process and shift financial risk from investors to 
taxpayers, nuclear construction can resume its rightful place 
in furthering national energy goals''.
    But this story line is a harmful fantasy, inviting the 
wasting of a lot of money and effort in solving problems that 
nuclear power never had, while repeating the cycle that caused 
Forbes Magazine to proclaim in 1985 that the failure of the 
U.S. nuclear power program ranks as `` the largest managerial 
disaster in business history''.
    When TMI is seen together with the fire at Browns Ferry 4 
years earlier, and with other expensive mishaps such as fuel 
cladding failures, emergency core cooling system shortcomings, 
seismic design retrofits, and absence of offsite emergency 
plans, a clear picture emerges of a technology pushed far ahead 
of its operating experience.
    In 1968, the largest nuclear plant in operation was half 
the size of the smallest plant under construction. This was as 
if the airline industry had gone from Kitty Hawk to jumbo jets 
in 15 years. In 1972, the Atomic Energy Commission forecast 
that the Country would need 1,000 nuclear power reactors by the 
year 2000. This would have required the regulators to issue a 
license every week for the next 28 years, a pace that could not 
possibly have been sustained. In hindsight, trouble and 
disappointment were inevitable.
    The nuclear regulatory problem culminating in the accident 
at Three Mile Island was not that the United States had 
licensed too few nuclear plants too slowly. The Country had in 
fact licensed too many reactors too quickly. That is why within 
a decade of the TMI accident, we had a landscape dotted with 
nine figure cost overruns. Every State in a crescent from 
Mississippi to Washington, and in a line across the northern 
tier from Illinois to Maine, was touched by at least one event 
involving the waste of more than $100 million.
    NRC hearings did not close Three Mile Island. NRC hearings 
had nothing to do with the quality assurance breakdowns at 
Diablo Canyon and Zimmer. NRC hearings did not cause the diesel 
generator building at Midland to sink into the soil, or the 
tenfold cost overruns at the never-operated Shoreham Nuclear 
Plant in New York.
    Indeed, study after study made clear that NRC hearings have 
little to do with nuclear power's real problems. The reasons 
for nuclear power's inability to compete in U.S. power markets 
are beyond the scope of this hearing. But they have not been 
fixed by measures that assume that they were caused by Three 
Mile Island or by an overly cautious regulatory process. 
Indeed, they have not been fixed at all.
    Again, my thanks to the Subcommittee for the chance to 
expand on some of real and some wrong lessons of Three Mile 
Island. Undertakings such as this hearing as the way for the 
U.S. to learn history, rather than repeat it.
    [The prepared statement of Mr. Bradford follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Dr. Bradford, thanks very much for those 
comments and for your presence here today.
    Mr. Denton, welcome. Glad to see you. Thank you for joining 
us.

        STATEMENT OF HAROLD DENTON, FORMER NRC EMPLOYEE

    Mr. Denton. Thank you, Mr. Chairman and members of the 
Committee. I am glad to have this opportunity to meet with you.
    On Friday morning following the accident, Chairman Hendrie 
requested I go to the site and take charge of the NRC response. 
I would be President Carter's contact and work closely with 
Governor Thornburgh. A few hours later, the White House sent a 
helicopter to take me and Members and our staff to the site. On 
arrival, I asked the utility to inform us in advance of any 
changes they made in the status of the plant so that we could 
review them, and we began around the clock coverage of all the 
operations at the plant.
    Within a few days, we had over 100 NRC people at the site. 
The President asked during that time to be kept fully informed 
and had specific times that he wanted to be called in the 
morning and night. In addition, he indicated that all the 
resources of the Federal Government would be made available to 
bring the situation to a safe conclusion. I briefed Governor 
Thornburgh each evening and as events required, and he and I 
held press conferences nightly for many days there.
    I had never met President Carter or Governor Thornburgh 
before, but they appreciated the gravity of the situation. They 
were personally involved every day, and it was just remarkable 
cooperation that occurred during that whole crisis, between the 
Federal Government and State government.
    For example, I hadn't signed any paperwork through those 
weeks. I did not approve or request any formal assistance that 
required paperwork. The military provided logistical support. 
They brought in plane loads of equipment from around the 
Country and people. The Department of Energy did environmental 
surveillance around the plant with all their capability.
    We were not an operational agency. We were a paperwork 
review agency, so we had very little capability, operational 
capability. So someone found phones available for the fire 
service, so they served as our phones for communicating within 
our staff members. I stayed there for 3 weeks. The event was 
hectic and challenging and at times surreal.
    We were not sure and did not understand the full 
consequences of that accident for a long time afterwards. We 
originally knew that there had been a severe accident. That was 
inferred from measurements made outside the containment. When 
the core was finally accessible and people were able to look 
inside the core, the examination showed a drastically different 
appearance than most people thought.
    The uppermost fuel assemblies were completely destroyed, 
and research showed that about 45 percent of the core had 
melted. The critical phase of the accident was actually over 
Wednesday morning in looking at this accident in retrospect. 
Operators turned off redundant emergency core cooling systems, 
although the reactor was losing water continuously through a 
failed valve. No core damage would have resulted if the 
emergency pumps, which were started automatically had been left 
running, instead of being shut off.
    About 100 minutes into the accident, the water level 
dropped below the top of the core and the fuel began to 
overheat. As the water level continued to drop, more and more 
of the central core melted and flowed downward and solidified 
when it reached the bottom of the reactor vessel.
    Approximately 4 hours later, nearly 20 tons of molten core 
material had reached the bottom of the reactor vessel. The 
circular area at the bottom of the reactor vessel experienced 
extremely high temperatures for about 30 minutes before 
cooling.
    At 16 hours into the accident, the operators managed to re-
start pumps and provided a way of getting water back into the 
core and providing subsequent cooling. A robust reactor 
containment structure proved valuable during this accident. The 
offsite radiological consequences were minimal.
    The history of containments is kind of interesting to me. 
The first containment was in use proposed back in 1947 by a 
blue ribbon committee of the Atomic Energy Commission. Since 
that time, containment structures have always been a safety 
feature of commercial reactors.
    During the TMI accident, the total amount of iodine 
released, which is a particularly hazardous material, was about 
one million times less than that released as a result of the 
uncontained Chernobyl accident in the Ukraine. Also, we found 
that as a result of studies after the accident that the 
possibility of the penetration of the containment basemat by a 
molten core, commonly referred to as the China Syndrome, which 
had not been studied since prior to the accident, is very 
unlikely to have penetrated the containment basemat even if the 
hot core had reached the basemat.
    A second topic that was subject to a lot of review at the 
time was the possibility of a hydrogen explosion within the 
containment. There had been a hydrogen explosion in the 
containment, but that led people to start thinking about could 
there be a hydrogen explosion within the reactor vessel. 
Calculations had been done, but they had neglected a reported 
factor that indicated that oxygen would recombine with the 
hydrogen in the water essentially as soon as it was generated, 
so there never was a chance for a hydrogen explosion in the 
reactor.
    As you mentioned before, the accident was comprehensively 
examined by a number of investigations, including the 
President's Commission.
    Senator Carper. Mr. Denton, you are a little bit over 6 
minutes. I am going to ask you to try to wrap it up here very 
shortly if you can, please.
    Mr. Denton. All right.
    My conclusion is that the safety of power plants today is 
better than ever as a result of all the lessons learned. 
Federal and State preparations for emergency planning are 
better than ever, coping with new standard designs, and coping 
with the fact that the nuclear technology doesn't really exist 
in the U.S. today as it did back in those days, there will be 
continuing challenges for the NRC Commission.
    [The prepared statement of Mr. Denton follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Thanks. Your entire statement will be made 
part of the record. When we add new questions, I am going to 
come back and ask you to kind of go back and revisit that last 
part of your testimony for us, if you would. Thanks so much.
    Governor, General Thornburgh, we are delighted that you are 
here. I don't know how many people have been both a Governor 
and Attorney General for two Presidents, but not too many. So 
it is a real honor for us that you are here. Thank you.

STATEMENT OF DICK THORNBURGH, OF COUNSEL, K&L GATES LLP, FORMER 
                    GOVERNOR OF PENNSYLVANIA

    Mr. Thornburgh. Thank you, Mr. Chairman, members of the 
Subcommittee. My full written statement attempts to recount on 
a day by day, hour by hour basis the events of March 28, 1979, 
and the days immediately following, from my vantage point as a 
newly minted Governor of Pennsylvania.
    Senator Carper. I think we all found it just very 
interesting. All the testimony is very good, but it was just 
riveting the way you documented it. So it was very interesting.
    Mr. Thornburgh. Thank you.
    The statement addresses a couple of things that I want to 
emphasize about the emergency management side. One is the 
constant frustration that existed concerning the inability to 
acquire reliable information about what was transpiring at the 
damaged reactor, and the difficulty in communicating between 
various centers of activity.
    Remember, this was an era before we had cell phones, the 
Internet, BlackBerrys, video conferencing and the like. Land 
lines, which were the exclusive way to communicate, were 
frequently jammed, even the so-called hot line which had been 
established between the White House and President Carter and 
myself.
    Reliable information concerning potential threats to health 
and environment were equally hard to come by. Experts 
proliferated, but most of them were of little use. They either 
exaggerated the safety or exaggerated the threat of the 
situation.
    I would be remiss if I didn't pay particular tribute to 
Harold Denton, who proved to be the real hero of this episode. 
He had an ability to translate nuclear jargon into plain 
English. He had a calm demeanor that built confidence and 
credibility, and he served as an effective antidote to the 
coincidental opening of the movie The China Syndrome in the 
Harrisburg area just prior to the accident. Talk about surreal 
events. That had to be one at the top of the list.
    We have seen 30 years pass since the time of the event, and 
I want to offer some brief observations on the future of 
nuclear power in light of present day circumstances.
    Energy independence is a byword today. A familiar litany 
has developed about the need to rely more on alternate sources 
of energy, but most people acknowledge that the prospects of 
substantial and timely relief from hydro, wind, solar, biomass, 
et cetera, is highly unlikely.
    As a result, there is a growing and renewed interest in 
nuclear energy, which is now supplying in many countries around 
the world more than the majority of their energy needs.
    There is more and more interest in all non-carbon producing 
sources, such as nuclear, even among some environmentalists who 
are traditional opponents of nuclear energy. Concerns about 
global warming have made strange bedfellows indeed.
    The predictions of a comeback for nuclear power must be 
tempered, however, by major concerns that exist, and I will 
refer to those briefly. Nuclear technology, as has been 
referred to today, has become increasingly complex and 
demanding, and more expensive, and we have to rely more and 
more on foreign component manufacturers. Even the pioneer in 
this area, Westinghouse Electric in my State of Pennsylvania is 
now owned by Toshiba.
    The costs of construction are going to go up, increased 
financing costs, the $18.5 billion loan guarantee program 
authorized in 2005 has been underfunded and understaffed, and 
now must compete with other priority needs.
    The safety record that has been referred to this morning, 
and it is certainly improved since pre-1979 times. Emergency 
management capabilities at the State and local level, while 
they have no doubt been upgraded, have not been tested, and 
with the passage of time no doubt have not been the high 
priority that they were in the immediate aftermath of TMI.
    I think the most important and sizable barrier to a 
vigorous development of nuclear power in the U.S. is the 
inability thus far to solve the problem of the disposal of 
spent nuclear fuel. President Obama's scuttling of the Yucca 
Mountain site is only the most recent setback in the effort to 
tackle this vexing challenge.
    Surely, this has to be a high priority in the expenditure 
of Federal research and development funds, even to the point of 
committing to a Manhattan Project type undertaking, to call 
upon our technological expertise to remove a significant 
barrier to helping to solve our energy problems and contribute 
to a better quality of life for all of our citizens.
    Thirty years after the Nation's most serious nuclear 
accident, we have yet to address many of these key issues in a 
systematic way, and I compliment you, Mr. Chairman, and your 
Members, in calling this hearing to spotlight some of these 
issues.
    If we continue on our present path, we threaten to deprive 
ourselves of a potential green source of much-needed electric 
power.
    Many thanks. I look forward to your questions.
    [The prepared statement of Mr. Thornburgh follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Governor, thank you so much.
    Mr. Fertel, Marvin Fertel, welcome. We are happy that you 
are here. Thanks.

 STATEMENT OF MARVIN S. FERTEL, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, CHIEF NUCLEAR OFFICER, NUCLEAR ENERGY INSTITUTE

    Mr. Fertel. Chairman Carper and Members of the Committee, 
thank you for holding this hearing today.
    As you know, this month marks the 30th anniversary of the 
accident at Three Mile Island. Since then, the nuclear energy 
industry and the Federal Government have dramatically increased 
safety and reactor operating standards and developed a safety 
culture that we believe is demonstrably among the best in 
American industry and worldwide.
    The accident at Three Mile Island has had profound and 
lasting effects on virtually every aspect of nuclear power 
plant safety and operations. Lessons learned from the accident 
are permanently ingrained in the nuclear industry's training, 
procedures, regulations, and culture.
    The Kemeny Commission, which has been referred to earlier, 
recommended two things that we took very seriously. First, 
``that the nuclear power industry should establish a program 
that specifies appropriate safety standards, including those 
for management, quality assurance, and operating procedures and 
practices, and that conducts independent evaluations.'' And 
second, ``that there must be a systematic gathering, review and 
analysis of operating experience at all nuclear plants, coupled 
with an industry-wide international communications network to 
facilitate rapid flow of information to affected parties.''
    The industry took those recommendations and formed the 
Institute of Nuclear Power Operations 9 months after the 
accident, and charged it with promoting the highest levels of 
safety and reliability in the operation of our plants.
    The institute drives operational excellence, open 
communications, and continuous improvements among all U.S. 
nuclear plant operators. All U.S. energy companies that own and 
operate nuclear plants are members of INPO and they are driven 
by INPO to continuously strive for excellence in reactor 
operation.
    INPO has had a profound impact on the way nuclear plants 
are managed and operated. The proof, we believe, is in the 
steady improvement in plant performance over the last three 
decades since the accident. To improve training, INPO in 1985 
formed the National Academy for Nuclear Training to focus and 
unify industry efforts to continuously improve training and 
qualification programs and to promote professionalism of 
nuclear plant personnel. The academy reviews nuclear utilities 
training programs for key positions at each plant.
    Since TMI, the industry also introduced the use of plant-
specific reactor control room simulators at every site. In 
1979, there were only four simulators for the use of all 
nuclear plant operators. The number of operating crews was 
expanded, and each crew spends a week in training in the plant-
specific simulator every 6 weeks.
    INPO also provides a unique form of self-regulation and 
recognition that the nuclear industry's standard is excellence. 
INPO teams conduct onsite 2 week inspections at each plant once 
every 2 years to assess the knowledge and performance of plant 
personnel, the condition of systems and equipment, the quality 
of programs and procedures, and the effectiveness of plant 
management. Each year, INPO conducts meetings with all of the 
industry chief executive officers, in which both the good and 
poor performance is openly discussed, providing accountability 
for plant performance at the highest level of management.
    INPO also reviews significant events at nuclear plants and 
communicates lessons learned and best practices throughout the 
industry. INPO provides assistance with specific technical and 
management issues in areas related to plant operations and 
support.
    And as mentioned by the Governor, although emergency 
preparedness procedures had been in place prior to the TMI 
accident, it was clear from the event that additional action 
was required. As a result, the industry developed comprehensive 
emergency preparedness and response programs in cooperation 
with Federal, State and local leaders, and additional 
requirements were imposed by NRC and FEMA.
    The TMI-2 accident caused no injuries to workers or the 
public, but there was emotional distress as a result of the 
event and related evacuation of residents near the plant. A 
dozen epidemiological studies conducted since 1981 have found 
no discernible direct health effects in the population in the 
vicinity of the facility, and these studies are all summarized 
in my written testimony.
    Since TMI, one of the nuclear industry's tenets is to 
never, and this is a term you have heard from everybody so far 
today, become complacent in our vigilance for safe operations 
of nuclear facilities. To prevent complacency, the industry is 
taking proactive actions to identify and resolve any emerging 
issues promptly and effectively, and to communicate operating 
experience broadly across the industry.
    The goal is to identify equipment or human performance 
problems well in advance of any significant impact on plant 
operations.
    Mr. Chairman, to conclude I would want to assure this 
Committee that the accident at Three Mile Island has had 
profound and lasting effects on virtually every aspect of 
nuclear power plant safety and operation. Today, the industry 
is more efficient, more productive, more professional and above 
all, more committed to safety. We continue to share operating 
experience and lessons learned because we will not allow 
history to repeat itself.
    Safety is and will continue to be our highest priority. The 
safety of our reactors today is evident in the world class 
performance of the facilities, and the exemplary worker safety 
record across our industry.
    Thank you for this hearing, and thank you for your interest 
in our industry.
    [The prepared statement of Mr. Fertel follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Mr. Fertel, thank you for joining us today 
and for your testimony again today.
    Dr. Bradford, I would just ask my colleagues to direct 
their first questions to you, and then we will come back and 
ask questions of our other three guests.
    The question, the first question I would like to ask of 
you, if I could, I am reminded, I think it was Harry Truman who 
used to say, ``The only thing that is new in the world is the 
history we never learned or have forgotten.'' And I like to 
think of Three Mile Island in the context of lessons that we 
learned, lessons that we didn't learn, and maybe lessons that 
we learned, but we have forgotten.
    Let me just ask you, thinking back, taking that approach of 
lessons learned, lessons never learned, and maybe lessons 
learned, but forgotten, just kind of tell us what you think in 
those three broad categories.
    Mr. Bradford. Well, I probably can't do much with the 
learned but forgotten category because I have forgotten it.
    [Laughter.]
    Mr. Bradford. But in the context of the push for a nuclear 
renaissance, it does seem to me that one lesson that at least 
has faded from the forefront is the difficulty of maintaining a 
strong, clear focus on safety at a time when the rest of the 
Government seems entirely focused on licensing additional 
plants. That was very much the concern at the time of the 
accident at Three Mile Island. The pace of new applications had 
fallen off, review times had gotten longer. And many of the 
congressional hearings and much of the media's focus was why 
can't we get this process started up again.
    And in some ways, that pressure did contribute, I think, to 
the combination of complacency and haste that led to the 
accident.
    So my concern today in a context in which the industry is 
seeking your support for all of, essentially financing all of 
the plants that they see in the pipeline, is similar to the 
concern that Commissioner Jaczko echoed, or articulated well in 
the last panel, that there really is a need to prioritize, to 
pay attention to the pace at which the NRC can license and the 
taxpayer can afford to build the new plants. It may be 
different from the pace that the industry would like to move 
forward at.
    And that the setting of limits based on what the process 
can handle, rather than what the industry would like might make 
a significant contribution to safety. So maybe that one lesson, 
in a way, answers all three of your questions. It seems to me 
to have been an important lesson at the time of Three Mile 
Island, and there is a danger of its being overlooked and 
forgotten in the climate that exists today.
    Senator Carper. All right. Thank you.
    One last question from me, and then I will yield to Senator 
Voinovich.
    I think you expressed concerns in your comments, or at 
least in your testimony, about the streamlining of the license 
process. What are your views on the current new and renewal 
license process? And do you feel public input is adequate on 
those?
    Mr. Bradford. I am glad you asked that question, Senator. 
In the context of your discussion with the previous panel on 
communication, I was running through in my mind all the areas 
in which I agreed that communication has improved.
    But there is one respect in which I think communication has 
regressed, and that is that the public has far less access to 
the licensing process today, not just because of the one step 
process. In many ways, that change is constructive. But the NRC 
has also adopted a number of rule changes that drastically 
curtail the ability of people participating in their process, 
first to raise contentions effectively, and second, to pursue 
them.
    Attorneys can no longer cross examine directly in many 
situations. They have to submit questions through a panel 
chair. And that's really an area of the Kemeny Commission and 
the NRC's own Special Inquiry Group Report that has just been 
ignored in the years that went by.
    The Kemeny Commission recommended that the NRC create an 
Office of Special Counsel to represent the public in its 
hearings. The Rogovin Group actually went further and 
recommended intervener funding. None of that has happened. In 
fact, the NRC hearing process in some ways has become almost a 
show trial in terms of the public's ability to be heard 
effectively.
    So I think the reforms in the direction of one-step 
licensing posed difficulties, but they also offer benefits. The 
exclusionary regulations that the NRC has adopted seem to me to 
be a mistake, an unfortunate one.
    Senator Carper. All right. Thank you, sir.
    Senator Voinovich.
    Senator Voinovich. One of the things that we try to 
concentrate on during the last number of years is human 
capital. And I have found because of my experience on the 
management side of government that so often regulatory agencies 
aren't able to do the job that you would like them to do 
because they don't have the resources to get the job done.
    I would be interested, Mr. Denton, in your reaction to what 
Mr. Bradford said earlier, and that is that there was a 
movement in the Country of having too many, too fast, that by 
2000, 1,000. I don't know who predicted that, but that was 
pretty ambitious.
    And then contrast that today with the situation where the 
Nuclear Regulatory Agency is probably the only Federal agency 
that has been able to replace the retirees that they have had, 
and in addition to that bring on new people to take care of the 
challenge of the new licenses that are coming before it.
    Mr. Fertel, you are watching this, too, and I might be 
interested in your comment in regard to that because the 
impression that you have, Mr. Bradford, is that they are not 
able to get the job done.
    I have to tell you that Senator Carper and I have worked 
very, very hard to create an environment there where they can 
replace their people. We have given them flexibilities that 
other agencies don't have. They are No. 1 in the Federal 
Government in terms of job satisfaction with their people. We 
have reached out to MIT, even Ohio State in Ohio, Cincinnati, 
to get the schools back on track in terms of producing the 
people that we are going to need for this renaissance that we 
hope takes place.
    So I would just throw that up, a jump ball, and give you 
all a chance to comment on it.
    Senator Carper. Dr. Bradford, feel free to go first if you 
would like.
    Mr. Bradford. My concern is less with resources directly, 
because I agree that you have been very supportive of the NRC 
with regard to getting people for processing additional 
licenses. The concern is, that I have is more that when the 
Commission comes before various congressional committees and if 
the message is constantly one of are you meeting the licensing 
deadlines, are you avoiding delays, how can we squeeze a few 
more months out of the process, and they are never asked about 
the resolution of generic safety issues, and never asked to 
put----
    Senator Voinovich. But you see, that is not the case, Mr. 
Bradford. Have you followed the numerous hearings that we have 
had? Twenty of them over the last number of years. That is not 
the case.
    Mr. Bradford. No, sir. I have only been here this morning.
    Senator Voinovich. Well, I think it would have been good 
for you to maybe check in to see what has happened during the 
last 8 years.
    Mr. Bradford. Well, you know, if you have put the same 
emphasis on getting a schedule for the generic issues, getting 
them on a track, being sure that the resources are available, 
that is terrific. And if all the other committees that they 
come before have done the same thing, that is terrific, too.
    But if that isn't the balanced communication that they are 
getting, then there is the possibility, indeed the likelihood, 
that in trying to be responsive to the Congress, people will be 
shifted into the areas that the Congress is most concerned 
about.
    It happened certainly at times in the 1970s. That is the 
era that I am familiar with.
    Senator Voinovich. Can I ask you something? Do you believe 
that we should go forward with a nuclear renaissance? Do you 
believe that nuclear energy is something that we should 
increase in this Country in terms of baseload generation? Do 
you believe that nuclear power is something that is available 
to reduce our greenhouse gas emissions?
    You know, or are you just, I mean, where do you stand on 
that?
    Mr. Bradford. You know, I spent 20 years in positions of 
responsibility for the power supply to two States, and by the 
end of that time, my effort was devoted to creating processes 
that made the wisest economic choice essentially through the 
kinds of competitive market processes that we use in every 
other area, with the investors responsible for taking the risks 
and the customers responsible for paying off the costs once the 
plants are serving them.
    When those processes were put in place, nuclear power never 
bid. The investors would not take those risks. I would be glad 
to see nuclear power be part of a climate change solution 
package when it reaches the point in time that it is able to 
compete effectively in those power supply markets. And those 
markets have made sure that more than half of the customers in 
the U.S. in the regions that have gone to power supply markets, 
have had adequate electric supply for the 25 years now that we 
have been relying on them.
    But nuclear power can't play in those markets. And it 
troubles me greatly to see the Congress asked to pick this one 
technology and favor it heavily in financial terms.
    Senator Voinovich. Do you know something, that nuclear 
power has, in terms of, if you look at solar and wind power and 
see where the money that we have spent during the last several 
years is going, that is where the money is going.
    I think the only thing that the industry is concerned about 
is the issue of loan guarantees that would be necessary to go 
forward, and of course a little bit more important today 
because of the fact that the financial markets are in such bad 
shape.
    But if you look at where we have spent money, it is 
amazing. You know, if I were somebody out there today, I would 
invest in solar and wind power because of the subsidies that 
are coming out of the Federal Government in that regard.
    Mr. Bradford. When it comes to government support, they 
have a long way to go to catch up with nuclear.
    Senator Carper. I am going to have to interrupt here. I 
will call on Senator Voinovich here in just a moment, but I 
want to yield to Senator Merkley for any questions you have of 
Dr. Bradford, and then he will be free to leave.
    Senator Merkley. Thank you very much, Mr. Chair.
    Professor, I thank you for your service as a Commissioner 
and the other work you have done. I find it very interesting to 
see the story, the history of the Davis-Besse Nuclear Plant, 
and essentially a leaky nozzle eroded the carbon steel, 
multiple inches of carbon steel over a series of 4 years, and 
then there was a football-sized hole in that, and the inner 
lining, stainless steel lining, was deformed by the pressure of 
the vessel into that hole.
    And the role of the NRC in this was multiple. First, they 
had been requested to require inspections of these nozzles 
because they had been known to leak. After 4 years of debating 
that, they decided not to require those inspections.
    Then fast forward to 2001, they did take much stronger 
action and require plants to inspect those nozzles. The Davis-
Besse Plant was one of two plants they decided not to do that, 
and resist that requirement. And the NRC did relent at that 
point and decided it would be safe to wait until the plant 
inspection in 2002. They decided that, no, it should really be 
done, and ordered the plant shut down for emergency inspection, 
but the plant resisted and then they went back to the position 
of waiting until the safety inspection. It is when they had 
that February inspection they discovered this football-sized 
hole.
    Does kind of this story give us any sense of insight into 
the role of the Commissioners, the pressure they are under to 
keep plants operating? And do we have an adequate system in 
place to be able to address the real safety risk? Because I 
think this is believed by all to have been a substantial safety 
risk. Do we have a system now? Have we learned from that enough 
to restructure the way NRC operates in order to have them be 
able to stand up and really ensure that inspections take place, 
even when it involves shutdowns and costs and so forth? Have we 
figured out that balance? Or is there more we need to do?
    Mr. Bradford. I wish you had asked that question of the 
previous panel, of course, because I am not there today and 
can't----
    Senator Merkley. But they are in the middle of it, whereas 
you get the objective experience to----
    Mr. Bradford. It is, you know, it is clear certainly that 
the licensee made its concerns known at the Commission level, 
and that would probably happen today, too.
    On the other hand, I assume the Commissioners with the 
benefit of what happened at Davis-Besse would almost certainly 
push back perhaps more than occurred at that time.
    At the end of the day, the public's greatest safeguard in 
this area lies in the process of the appointment of 
Commissioners, the questions and decisions you make in 
confirming Commissioners, and the practices and procedures the 
Commissioners themselves put into place to protect the staff's 
technical judgments from any political or financial intrusions.
    The protection that the public will get in these kinds of 
situations will be just as good as the standards that you 
insist on in confirming and that the President insists on in 
making the appointments.
    Senator Merkley. Thank you. I think you have summarized 
that it remains an inherent challenge. We have to protect the 
integrity of the staff judgments and try to insulate the 
Commission from political or economic pressures that might 
overrule the safety judgments of the technical staff. Is that a 
fair way to summarize your point?
    Mr. Bradford. It is. Yes.
    Senator Merkley. OK. Thank you.
    Mr. Bradford. I think there is perhaps some encouragement 
to be had in the study that Chairman Klein cited regarding the 
high staff morale in the agency, because that is not suggestive 
of a place where the staff feels beaten down at the moment in 
its ability to raise concerns. At least that is my hope that 
that is what that study is suggesting.
    Senator Merkley. Thank you.
    Senator Carper. Thank you, Senator Merkley.
    And then Dr. Bradford, it is 12:30. Thank you so much for 
joining us.
    Mr. Bradford. Thank you very much. Again, my apologies to 
the Committee.
    Senator Carper. We are glad that you could come, and thank 
you very much for your input.
    A question, if I could, for Governor Thornburgh, and 
perhaps for Harold Denton as well.
    Governor, how important was it looking back 30 years, how 
important was Harold Denton's ability to communicate 
complicated technical information to the lay public, to 
ordinary people during an event of this nature?
    Mr. Thornburgh. It was crucial. It was crucial because this 
was a technology not known to the general public or to those of 
us in public office. The so-called experts were beleaguering us 
with conflicting advice, and we really, I told President 
Carter, I said send us one good person who could provide us 
with reliable information upon which we could make judgments 
with regard to emergency management.
    And without embarrassing him, I have to say that when 
Harold showed up, it was clear that he filled the bill.
    Senator Carper. Mr. Denton, how did you feel when you were 
tapped for this assignment? It is not every day that a 
President calls and says, Harold, I have a job for you.
    Mr. Denton. Well, I was shell-shocked probably at getting 
this assignment. When I went up, I thought that perhaps the 
White House would have a staff member up there and I would 
report to that person, and then this person would report to 
Governor Thornburgh. But I found out the moment I landed at the 
site the word had come in to us somehow that I was to call the 
White House, and I remember turning to my secretary, who had 
gone up with us, and I said, call the White House. And she 
replied, well, how do I do that? And I said, I don't know, 
Doris, that is your problem.
    [Laughter.]
    Mr. Denton. And I must have been under a lot of stress to 
snap at her like that, but she did get the White House, and the 
fact that the President was so willing to commit the resources 
of the Federal Government and so concerned about our relations 
with Governor Thornburgh and others, I felt pretty confident at 
the time that we would make every effort to bring things to a 
safe conclusion, and that is what we did.
    And there was just unparalleled cooperation among all the 
Federal agencies. I had never participated in any of the 
training for public affairs or public speaking sort of thing, 
but I did hold a press conference every day, and I think that 
was part of the secret that I came away with from that is that 
you need both technical people, subject matter specialist I 
will say, and elected officials to properly talk to the public.
    Technical people don't really communicate well. They are 
not elected. They don't necessarily understand the local 
context. The Governor brought that aspect to the communication 
process. Without that, people would probably still be 
evacuating.
    Senator Carper. The two of you made a good team.
    Let me ask both Governor Thornburgh and you, Mr. Denton, do 
you believe that the NRC has gone some way toward rectifying 
their communications problems? Doing a better job at it now or 
not?
    Mr. Denton. You mean in operation of reactors or in 
licensing reactors?
    Senator Carper. Just being able to communicate their work, 
their role, their concerns, their efforts to focus on safety. 
Some of these issues are pretty technical. Most people in the 
Country aren't all that good at understanding some of that 
stuff. I struggle with it as well.
    Mr. Denton. I don't think there has been a real advance in 
that area. I have wondered at times if Commission meetings held 
out in the region of the plant might be, you know, one way to 
do that. Not all meetings have to happen in Washington, for 
example.
    We would hold staff meetings in regional areas when there 
were problems, but usually the Commission didn't feel willing 
to move Commission decisionmaking out to a region.
    We have also been very uneasy about appearing to take sides 
on these arguments about should the plant be licensed or not, 
except through formal mechanisms. So a lot of people who are 
unhappy with Commission decisions never get a chance to see 
their decision challenged, so to speak, outside of a courtroom.
    Senator Carper. One last question for Governor Thornburgh, 
and perhaps for you, Mr. Denton. But do you feel that the 
States are better prepared? Do you think they have more of the 
tools that they need to meet an accident of this nature today, 
than maybe 30 years ago?
    Mr. Thornburgh. That is still an item of concern to me. 
Thirty years have gone by, really a whole generation has grown 
up without having fresh in their memory the experiences of 
Three Mile Island. I think one would hope that those lessons 
have been learned. I did a lot of yapping about it when I was a 
Governor. We spent a lot of time focusing on emergency 
management issues.
    But it really bears substantial repeating, because the 
first lesson that I set forth in my written statement was 
expect the unexpected. And I think sometimes we are not as good 
at that as we would like to be.
    I would just add one thing to Harold Denton's observations. 
Mercifully, I haven't since 1979 had occasion to deal with the 
NRC in an emergency situation. But I don't think there is any 
question but what at the very least that got their attention.
    I think that one of the things that both Harold Denton and 
I agreed upon in the aftermath of the Three Mile Island 
incident was you can't manage this kind of an emergency 
situation away from the site. And most of the problems that 
evolved during this experience resulted from a failure to 
observe that.
    And I think his observations about getting the Commission 
and its staff out among the folks is good for any government 
agency, and I would second that motion as well.
    Senator Carper. Thank you.
    Mr. Fertel. Mr. Chairman.
    Senator Carper. Just very briefly. My time has expired and 
I want to go to Governor Voinovich. Just very, very briefly. Go 
ahead, very briefly. Thank you.
    Mr. Fertel. OK. The only thing I would add to what the 
Governor just said to your question is that there are exercises 
around every site every 2 years, which has gone on very, very 
rigorously. Where I think there has been significant 
improvement, not only in analytical tools like dose assessments 
and communication things and siren systems, is in relationships 
among the site people who interface on drills and everything 
else with the local and State people.
    Where I actually think what we do around our sites is 
negative training goes a little bit the other way. You heard 
the Governor and you heard Harold talk about how long this 
event took to evolve, and how it went. Well, when we do an 
exercise, we get to a general emergency as severe, if not much 
more severe, than what happened at Three Mile Island in a half 
a day.
    And we are conditioning people in decisionmaking in the 
State and local government to think that this happens that 
fast, and it doesn't. So I think we have improved a lot, but we 
may be doing negative training in certain respects.
    Senator Carper. OK. Thanks for that comment.
    Governor Voinovich. Senator Voinovich.
    Senator Voinovich. I am thinking about the security at 
these facilities. Several years ago, someone asked if we were 
going to have a terrorist attack or something in Cleveland, 
where would you go? And Davis-Besse is about 20 minutes from my 
house, and I said I am going to Davis-Besse. It is just amazing 
what they are doing out there. I have even said I visited other 
Federal facilities in the United States, and the security just 
is really not up to what it should be, and I said, why don't 
you get in a car or fly a plane and get out and see how we are 
securing our nuclear facilities around the Country.
    I think it is important for everyone to understand that not 
only has this Committee, Subcommittee, had 20 hearings in 8 
years. That is two and a half a year. But I can tell you that 
Senator Carper and I have met, and I personally have met with 
Nils Diaz and now with Dale Klein, who I believe is really 
doing an outstanding job, in my office. I think sometimes 
people think that the oversight that is getting done by 
Congress is done at these hearings. And yes, they are very 
important, but it is that special time that a Senator spends 
with the people that run the agency and the Commissioners that 
make a difference.
    Senator Carper, since he has taken over the chairmanship, 
has also had these groups of people together, and getting their 
input. We are going to be going up to MIT to get their slant on 
things.
    So I think it is real important that people understand that 
we are pretty sincere about what we are doing, and I think it 
is important. Maybe Mr. Fertel you could comment on the 
fastidiousness now that we have at the NRC since Davis-Besse. 
There is no question that they weren't getting the job done. 
There were lessons learned there. The industry wasn't doing the 
job. And they weren't doing the job.
    But I think there is, and I would like to share with you 
some of the things that they have done since then to really 
demonstrate that if there is anything that looks like it's not 
where it should be, they just shut them down. It is a very 
interesting difference of the way they are handling it.
    Plus one other thing, and that is INPO, your organization, 
that I think the people that run these places understand today 
that they really have to be on their toes. I have had some 
people tell me that this peer pressure is enormous in terms of 
getting them to do the things that they should be doing.
    So Mr. Fertel, would you like to comment on that?
    Mr. Fertel. I had the distinct pleasure of sitting here 
before you after Davis-Besse and saying how it was a failure 
not only on the company's part, and the NRC's part to some 
degree, but also on INPO's part from an industry standpoint. 
And INPO has dramatically modified its assessment process, with 
safety culture being a core portion of it now.
    In every INPO evaluation, safety culture is considered and 
in addition the plants do self-assessments on safety culture 
biannually. So from an industry standpoint, to some degree 
Davis-Besse had a real ground-breaking change for us, just like 
TMI did 30 years ago for operational safety.
    At the NRC, they did a very significant lessons learned. As 
you said, Senator Voinovich, they now look at safety culture as 
part of their reactor oversight process, which they didn't 
before. They are looking at improving how they do that, and 
they have implemented, I think, on the order of 18 to 20 
different lessons learned that came out of the Davis-Besse 
experience.
    So we have seen a dramatic change within our own industry 
in how we look at it. And NRC has implemented a pretty dramatic 
change within their own oversight the way they look at it. So 
it has had a big impact.
    Senator Carper. All right.
    Senator Merkley, the last word here.
    Senator Merkley. Thank you, Mr. Chair.
    Governor Thornburgh, in your testimony, you noted that the 
added cost and increased scrutiny by regulatory authorities 
since the accident, together with decreasing costs from 
competing sources, have added up to an uncertain future for the 
industry.
    I am assuming you are describing a situation in which the 
process of responding to the risk of human error, the risk of 
natural catastrophe, the risk of terrorist attack have driven 
up costs, while some other non-carbon sources, we have new 
innovations that are reducing the cost of solar, wind, or so 
forth.
    When you see these things through the picture of a non-
subsidized competition, if you will, is there a clear hierarchy 
in terms of the most cost-effective strategies to produce 
carbon dioxide-free electricity?
    Mr. Thornburgh. It would take a wiser man than me to answer 
that question, I think. It's not an area that I feel 
comfortable in. I think the point that is made here is that 
given the enormous concern about safety and the experience of 
the Three Mile Island accident, the regulatory overburden is 
bound to be greater for the nuclear industry than for other 
competing sources of energy.
    Now, how that breaks down quantitatively and what kind of a 
box score you come up with in making that comparison, I am 
really not qualified to say. But I think it is without doubt 
that that regulatory overburden varies directly with the amount 
of public concern over safety and threat to the environment, 
both of which have underscored a lot of the opposition to 
nuclear power over the years.
    Senator Merkley. Mr. Fertel, did you want to?
    Mr. Fertel. Yes, I mean, what I would say in response to 
your question, Senator, is that right now our 104 plants are 
basically the lowest cost electricity in our Country outside of 
hydro. So with the burden of the regulation, which is 
appropriate in most cases, both security and safety, we are 
still after hydro the least expensive cost to consumers.
    With regard to new plants, our capital costs are certainly 
higher than others, but we think the electricity will be 
competitive. With regard to Peter's comments about subsidies, 
the loan guarantee program that we are in, we pay for. So it is 
not a subsidy. We actually pay the government money for a loan 
guarantee that we would get, just like you would pay the bank 
money for a loan that you would get. So I am not quite sure 
where the subsidy comes in.
    Senator Merkley. Could I follow up on that point?
    Senator Carper. Sure. Go ahead.
    Senator Merkley. So my understanding was that there is a 
cap on liability of $10 billion, with the estimate of a single 
major incident being perhaps up to $300 billion, and that the 
private cost of providing that kind of insurance is so high 
that essentially investors would not invest if the government 
didn't provide that cap.
    Is that the subsidy you are referring to?
    Mr. Fertel. No, that may be something Peter refers to, and 
he's totally wrong. To just be straight about it, Price 
Anderson, which is a law that Congress enacted and has renewed 
I think five times, doesn't cap our liability. It imposes a 
liability. There is no other industry in the world, chemical 
industry, nuclear industry, elsewhere, anywhere, that has a $10 
billion liability for an accident that might happen.
    The most severe accident that we have ever had is Three 
Mile Island, and basically Price Anderson ended up paying out 
money to people around there on the order of about $100 
million. So we have a liability of $10 billion, which is a 
pooled liability for our industry, no taxpayer money. There is 
insurance for the first primary coverage of $300 million, but 
you have a pooled liability. It's not that you can't purchase 
liability insurance. But if you look at 64 sites with $10 
billion at each site, it is $640 billion worth of third party 
liability, which I believe is much greater than all of the 
third party liability insurance in the country though I 
honestly have never been able to get an answer from the 
insurance companies on what the capacity is.
    But I don't think there is that much liability capacity in 
the country to try and do it. So we would argue, we have the 
best liability program in the world, that other countries try 
to copy, as opposed to a subsidy.
    Senator Merkley. I will just look forward to following up 
with you, because my understanding was that you are required to 
buy insurance, but at the same time the law caps your exposure 
to $10 billion. So we can follow up and get more information.
    Mr. Fertel. Sure. What Price Anderson does is it requires 
us to buy $300 million, whatever is in the market at the time, 
and that's what everybody has. And then it requires, escalating 
with inflation, each site, if I have an accident at my site and 
I have to basically go into bankruptcy, all the other plants 
have to pay the rest of the liability up to $10 billion.
    If we ever got to $10 billion, and keep in mind we have had 
no accident that gets you anywhere near it, if you ever got 
there, the way the law is written, Congress would then decide 
whether or not the industry should continue to pay more, or 
Congress would intervene and decide that, no, the industry 
shouldn't, but it would be a decision by the Congress.
    Senator Merkley. Thank you.
    Senator Carper. Well, gentlemen, this has been an 
enlightening morning and early afternoon. I want to really 
thank you for joining us today.
    Governor Thornburgh and Mr. Denton, it is just really 
heartening for me and I think to all of us to see the two of 
you sitting together side by side, arm in arm, still trying to 
help get us through some tough, challenging times.
    Mr. Thornburgh. A mutual admiration society.
    Senator Carper. Oh, it's a good one there.
    Mr. Thornburgh. We saved each other's necks.
    [Laughter.]
    Senator Carper. And you saved some other people's necks as 
well.
    I want to conclude just by saying that we may have some 
follow up questions that we will submit in writing, and if you 
could respond in a timely manner, we would very much appreciate 
that.
    With that having been said, to my colleagues and to our 
staff who worked on this hearing today, thank you all.
    This hearing is adjourned.
    
    [Whereupon, at 12:50 p.m. the subcommittee was adjourned.]


                                 [all]
                                 
</pre></body></html>
